<html>
<title> - DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2013</title>
<body><pre>[Senate Hearing 112-]
[From the U.S. Government Publishing Office]



 
     DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2013

                              ----------                              


                       WEDNESDAY, APRIL 18, 2012

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:34 a.m. in room SD-124, Dirksen 
Senate Office Building, Hon. Jack Reed (chairman) presiding.
    Present: Senators Reed, Feinstein, Johnson, Tester, and 
Murkowski.

                UNITED STATES DEPARTMENT OF AGRICULTURE

                      United States Forest Service

STATEMENT OF TOM TIDWELL, CHIEF
ACCOMPANIED BY SUSAN SPEAR, ACTING DIRECTOR, STRATEGIC PLANNING BUDGET 
            AND ACCOUNTABILITY

                 OPENING STATEMENT OF SENATOR JACK REED

    Senator Reed. Good morning. I would like to welcome 
everyone to this hearing on the fiscal year 2013 budget request 
of the United States Forest Service (USFS).
    And on behalf of the subcommittee, I would like to welcome 
Tom Tidwell, Chief of the USFS. Chief, thank you. And he is 
joined by Susan Spear. Thank you, Susan.
    We appreciate you appearing before us to discuss the issues 
pertaining to the USFS.
    As you may know, Rhode Island is not home to any national 
forest, yet. But the reality is that 55 percent of my State is 
actually forested land. It is in State or private ownership. 
That's a huge amount given we are the smallest State in the 
country, and also have the second-highest population density.
    So, forests are important to every State, including Rhode 
Island. We recognize the USFS's main role is to maintain our 
national forests, but they also support outdoor recreation, 
habitat, access to open space in every State in the country, 
including Rhode Island.
    Again, we thank you for your service, and believe it is 
important everywhere. And the hearing today is to ask you 
questions about your budget, and to see what we can do to 
provide you the resources necessary.

                    FISCAL YEAR 2013 BUDGET REQUEST

    As I turn to this budget, I note that the administration's 
request for all USFS programs totals $4.849 billion in new 
budget authority. That amount is $255.1 million or a 5.6-
percent increase more than the fiscal year 2012 enacted level.
    What looks like a large increase though has to be put into 
perspective. It is important to note that this subcommittee 
provided an additional $240 million in prior-year funding to 
cover firefighting needs for fiscal year 2012.
    So on an apple-to-apples basis, that means that the 
administration's budget request is really only $15 million more 
than the fiscal year 2012 level, well within the kind of 
request we've seen for other departments under our 
jurisdiction.

                        WILDLAND FIRE MANAGEMENT

    Overall, the requested funds will continue wildland fire 
management (WFM) programs at $1.971 billion, a level that's 
essentially flat when compared to the fiscal year 2012 request. 
Within that amount, fire suppression's portion is fully funded 
at the 10-year rolling average of $931 million.
    USFS has also set aside $24 million from within its fire 
program to begin building its next-generation airtanker fleet, 
an action that is long overdue and something that I hope we can 
discuss at greater length this morning.

                         NATIONAL FOREST SYSTEM

    The request includes $1.62 billion for national forest 
system operations, an increase of $69 million, or about 4 
percent. Much of that increase is actually due to a major 
budget restructuring to create a $793 million Integrated 
Resource Restoration (IRR) program, a program which this 
subcommittee started as a pilot in fiscal year 2012, while the 
budget requests full funding. We will talk about whether the 
time is right for full funding or whether the pilot still has 
to be pursued.
    This request also includes an 11-percent increase for land 
acquisition and Forest Legacy programs for a total of $118 
million. Funding for construction of roads, trails, and 
facilities is cut by 12 percent, for a total of $334 million.

                       STATE AND PRIVATE FORESTRY

    And, finally, State and Private Forestry programs are 
slated to receive a 1-percent cut for a total of $251 million.
    The budget request includes a number of proposed changes to 
State Forestry Grants including a new $18 million competition 
to fund landscape-scale restoration projects, which I also 
expect we will have a chance to discuss today.
    I look forward to hearing a more in-depth discussion of 
these matters with you, Chief, and Ms. Spear, after you have 
had the opportunity to share your testimony.
    With that, let me recognize and acknowledge my Ranking 
Member, Senator Murkowski. Senator.

                  STATEMENT OF SENATOR LISA MURKOWSKI

    Senator Murkowski. Thank you, Mr. Chairman, and good 
morning. And, Chief, good morning to you. Ms. Spear, welcome 
also.
    Before I comment on a couple of concerns that I have with 
the USFS budget request, I would like to raise a recent court 
decision that I believe has the potential to severely hamper 
the ability of the USFS to get work done on the ground.

                    SEQUOIA FORESTKEEPER VS. TIDWELL

    Chief, I think you clearly know what I'm talking about. On 
March 19, the Federal District Court in California found in 
Sequoia ForestKeeper vs. Tidwell that the USFS's use of 
categorical exclusions under the National Environmental Policy 
Act (NEPA) violates the Appeals Reform Act and enjoined the 
USFS from using these exclusions nationwide without providing 
for notice, comment, and appeal.
    This will mean that simple, routine tasks that have no 
environmental impact will be subject to full notice, public 
comment, and appeal. I think we're already seeing some absurd 
consequences.
    For example, Mr. Chairman, the USFS Web site lists a 
decision to replace a campground bathroom that is now subject 
to notice, comment, and appeal due to the Sequoia ForestKeeper 
case decision even though the USFS explicitly found that it 
will have no impact on the environment.
    So if a project as routine as replacing a bathroom in a 
campground is now subject to appeal, it's hard for me to 
imagine any USFS action that some group could not appeal or 
delay. And, in a time of extremely tight resources, I think 
this will cause waste within the Agency.
    We will lose enormous amounts of time. It will increase the 
costs of getting necessary work done, and it concerns me. I'm 
particularly concerned how this decision will affect activities 
on the Tongass National Forest in Alaska.

                     CATEGORICAL EXCLUSION IMPACTS

    In a local press account in the Juneau Empire earlier this 
month, the region 10 regional forester indicated that a 
categorical exclusion was used during the exploratory drilling 
process associated with Greens Creek.
    And I hope that you'll be able to explain to me the impact 
that this court decision may have on mining activities on the 
Tongass National Forest, not only at Greens Creek, but at the 
Niblack and Bokan Projects as well.
    I'm told that compliance with the court's order could add 
140 days to the permitting process where categorical exclusions 
have been used. These added delays will have even more harmful 
impacts in Alaska where the field's season is shorter than it 
is in the lower 48.
    I do hope, Chief, that you can assure me today that USFS 
plans to appeal the court's decision in Sequoia ForestKeeper 
vs. Tidwell, and that you're doing everything possible to 
mitigate the impacts of this decision.

                    INTEGRATED RESOURCE RESTORATION

    Now, turning to the budget, I'm concerned that, once again, 
USFS is proposing to collapse several different budget 
activities, including timber, into one large pot called IRR.
    This subcommittee explicitly rejected the same proposal 
last year and instead gave you the authority to pilot the 
concepts in regions 1, 3, and 4. The clear intent of the pilot 
was for USFS to prove that the concept had merit before the 
committee would consider it again.
    At this point, I don't think we've got the information from 
these three regions that would provide for an informed judgment 
on the merits of the proposal.
    There are many constituencies from the environmental 
community to industry that are skeptical of the big bucket 
approach to the budget, and I think that we need some clear 
data from the regions before we approve the consolidation of 
budget activities.
    And I certainly understand the Agency's desire for 
flexibility. The Congress and the public require the 
accountability, and I'm concerned that we're going to lose that 
with this proposal.

                        AIRTANKER MODERNIZATION

    I do applaud USFS for including $24 million in its budget 
for modernization of the large airtanker fleet. However, I am 
troubled by the lack of specifics within the budget about how 
these funds are going to be spent.
    Likewise, I appreciate that USFS issued a large airtanker 
modernization strategy, but again, I'm concerned about the lack 
of details. It does contain general description of several 
aircraft, but no indication of how and when the Agency intends 
to make its selection or whether it plans to purchase its own 
aircraft or continue to use the existing model of contracting 
for industry aircraft.
    So I do hope that you can give us some additional details 
on USFS plan for this. Again, Chief, I welcome you and thank 
you for your service, and look forward for the opportunity for 
questions and answers here this morning.
    Thank you.

                           PREPARED STATEMENT

    Senator Reed. Let me ask if any of my colleagues have 
opening statements. And, of course, all statements will be made 
part of the record. But if anyone wants to make statements now 
is the time to do so.
    Also, I have been informed that Senator Blunt regrettably 
could not attend this hearing in person, but has submitted a 
prepared statement for the record.
    [The statement follows:]

                Prepared Statement of Senator Roy Blunt

    Thank you, Chairman Reed and Ranking Member Murkowski, for holding 
this hearing today. I appreciate this opportunity to examine the 
budgetary needs of the United States Forest Service (USFS) in order to 
make sure taxpayer dollars are spent on programs that reflect our 
Nation's priorities.
    Additionally, I would like to thank Chief Tidwell and Director 
Spear for being here today.
    USFS manages more than 193 million acres of public land. The Mark 
Twain National Forest in Missouri represents a significant part of that 
mission. The Mark Twain National Forest consists of 1.5 million acres 
spanning 29 Missouri counties.
    USFS announced that more than $40 million would be dedicated to 
projects under the Land and Water Conversation Fund, including the Mark 
Twain National Forest. This includes almost $1 million to connect 
existing national forest lands to the Ozark National Scenic Riverways, 
with the stated goals of protecting watershed quality and providing 
maximum benefit for both resident and migratory wildlife species.
    While, of course, conservation activities with respect to forests 
are critical, I would hope that USFS focuses their efforts on the 
opportunity to increase harvest levels, without compromising forest 
health, and improve the Federal Government's return on its investment.
    Over the last 5 years, annual saw timber harvests in the Mark Twain 
National Forest averaged about $2.1 million for the 17.2 million board 
feet sold, according to Forest Industry and Analysis data.
    However, timber sale proceeds cover only about 7 percent of the 
Mark Twain National Forest's annual budget of $28 million.
    With annual saw timber growth of more than 210 million board feet 
worth an estimated $21,273,000, the National Forest System is missing a 
significant opportunity to capitalize on these resources.
    I hope that USFS takes these types of considerations into account 
when allocating, spending, or establishing new management plans.
    We need to both protect and utilize our natural resources to boost 
contributions to the GDP and create jobs. I look forward to your 
testimony, and thank you again for being here.

    Senator Reed. Senator Johnson.

                    STATEMENT OF SENATOR TIM JOHNSON

    Senator Johnson. Yes. Thank you, Chairman Reed, and Senator 
Murkowski, for holding this hearing today. And thank you, Chief 
Tidwell and Ms. Spear for being here to discuss the 
administration's request for USFS.
    I've appreciated your attention to forest health in South 
Dakota, and I look forward to continuing this discussion today 
in the context of the fiscal year 2013 budget. Thank you.
    Senator Reed. Senator Tester.

                    STATEMENT OF SENATOR JON TESTER

    Senator Tester. Well, thank you, Mr. Chairman. I appreciate 
you holding the hearing, and along with the Ranking Member, 
once again, thanks for being here, Chief. And, Susan, thank you 
very much for both of your time and your service to this great 
country.

                               H.R. 1581

    I just want to touch on one thing that you might be able to 
address in your opening statement. It deals with a bill in the 
House--H.R. 1581. It's a bill that, quite frankly, I think is a 
direct attack on our hunter and our fishermen in this country 
as far as access.
    One of the huge assets we have in this country is our 
Federal lands, particularly in the West. And the ability to 
utilize those Federal lands in a way that makes sense is 
critically important.
    What H.R. 1581 is going to do is release a lot of pristine, 
back-country land, good elk, good fisheries, just incredibly 
prized elk habitat and blue ribbon fisheries.
    Montana has one of the highest percentage of hunters and 
anglers in the Nation and it amazes me that some over in the 
House want to take away these opportunities. They want to talk 
about second amendment on the one hand, and in the other hand, 
take away the opportunity to use rifles in the wild.
    I would like to have you address that, if you can, in your 
opening statement, on what USFS thinks about extreme proposals 
like H.R. 1581, and what you think we ought to do about it.
    Thank you very much, Mr. Chairman. Thank you both.
    Senator Reed. Thanks, Senator Tester. Chief Tidwell, 
please.

                    SUMMARY STATEMENT OF TOM TIDWELL

    Mr. Tidwell. Mr. Chairman and members of the subcommittee, 
it is a privilege to be here to discuss the President's fiscal 
year 2013 budget request for the USFS.
    I want to thank you for the support that we have received 
from this subcommittee in the past, and I look forward to 
working with you in the future.
    The President's budget request, as you've already noted, 
reflects some very difficult choices we need to make to help 
reduce the deficit while investing in long-term economic growth 
and job creation.
    Our budget request supports these priorities through three 
key objectives. The first is our focus on restoration. This 
budget request would restore and sustain another 2.6 million 
acres of forest and grasslands by increasing collaborative 
efforts and building support for restoration activities, which 
helps create thousands of jobs each year.
    It requests full funding for the Collaborative Forest 
Landscape Restoration Fund that you gave us last year. We have 
been able to identify an additional 10 projects that are now 
moving forward because of what you were able to provide us in 
last year's budget. So I want to thank you for that.
    The fiscal year 2013 budget also requests permanent 
authorization for stewardship contracting, which is an 
essential tool that we need to have available, along with our 
timber sale contracts, to be able to do this restoration work.
    It also allows us to continue to apply the science, as 
developed by USFS research, to address the increasing frequency 
of forest disturbances. These range from longer fire seasons, 
record insect and disease outbreaks, and invasives to the 
floods and the droughts that we are experiencing.

                    INTEGRATED RESOURCE RESTORATION

    The budget request proposes an IRR budget-line item to 
align our budget structure with the work. I know that we need 
to first demonstrate through our pilot and the pilot regions, 
that this approach will not only increase our productivity and 
efficiency but also for us to be able to show not only the 
outputs that will be produced, but also how the outcome of this 
is going to help us address the watershed conditions across all 
our lands.
    Once again, I want to thank you for this pilot authority.

                        WILDLAND FIRE MANAGEMENT

    The second key objective with our budget request deals with 
WFM. It includes a level of preparedness that will continue our 
success in suppressing close to 98 percent of the wildland 
fires that we take on during initial attack. It does request 
the 10-year average for suppression.
    This is the area where you see a large increase, Mr. 
Chairman, as you have mentioned, in our budget request. It will 
also reduce the threat of wildfire to homes and communities by 
reducing hazardous fuels on a million acres in the wildland 
urban interface (WUI).

                        AIRTANKER MODERNIZATION

    It does request an additional $24 million to begin 
modernizing our large airtanker fleet. These funds will be used 
to pay for what we anticipate will be the additional contract 
costs to bring on what we call our next generation of large 
airtankers.

                  AMERICA'S GREAT OUTDOORS INITIATIVE

    The third objective is through the America's Great Outdoors 
Initiative, where we will increase support for community-based 
conservation. This enables us to continue to support 
recreational opportunities that improve on our quality of life, 
which we enjoy in this country, but it will also help maintain 
more than 223,000 jobs and about $13 billion in annual spending 
by recreational visitors.

                        INCREASING EFFICIENCIES

    It will help America to reconnect with the outdoors by 
increasing conservation education, volunteer opportunities, and 
increasing youth employment opportunities. We also request a 
slight increase in LWCF funding, in our Forest Legacy Program, 
to use conservation easements and land acquisition to protect 
critical forests and acquire public access while reducing our 
administrative costs of managing the national forests and 
grasslands.
    We will continue to work together with our States to use 
both State and private funding programs to promote conservation 
and to help keep private forests forested.
    We also encourage biomass utilization and other renewable 
energy opportunities while working to process oil and gas 
permit applications and energy transmission proposals more 
efficiently.
    We also propose a framework for reauthorization of the 
Secure Rural Schools Act, which I believe is vitally important 
to continue. Especially in these very difficult economic times 
that our counties and boroughs are currently facing.

                           PREPARED STATEMENT

    We have also included some actions to increase our 
efficiencies. Over the next 2 years, between 2013 and 2014, we 
will reduce our overhead costs by more than $100 million. This 
is an ongoing process of always looking at everything we do in 
order to increase our efficiencies; to make sure that we're 
doing everything that we can to get as much work done on the 
ground as possible through the appropriations.
    [The statement follows:]

                   Prepared Statement of Tom Tidwell

    Mr. Chairman and members of the subcommittee, it is a privilege to 
be here today to discuss the President's budget request for the United 
States Forest Service (USFS) for fiscal year 2013. I appreciate the 
support this subcommittee has shown for USFS in the past, and I look 
forward to working together with members of the subcommittee in the 
future to ensure that stewardship of our Nation's forests and 
grasslands continues to meet the desires and expectations of the 
American people. I am confident that this budget will allow USFS to 
meet this goal while demonstrating both fiscal restraint and efficient, 
cost-effective spending.
    Our Nation can and should take steps to reduce the deficit and make 
Government leaner and more efficient in the 21st century. The fiscal 
year 2013 budget that the President is proposing reflects the difficult 
choices we need to make to help reduce the deficit while investing in 
long-term economic growth and job creation. To make the strategic 
investments to grow the economy and tackle the deficit, this budget 
makes difficult cuts to programs. It also reflects efficiency and 
improvements to reduce our administrative costs. It is designed to 
appropriately fund programs that matter to Americans.

                             BUDGET CONTEXT

    USFS manages 193 million acres of public lands on 155 national 
forests and 20 national grasslands in 44 States and Puerto Rico. We 
also work effectively with States, tribes, local governments, 
communities and private forest landowners to support the sustainable 
stewardship of the 423 million acres of private forest, 68 million 
acres of State forests, and 18 million acres of forestlands on Indian 
reservations in the United States. USFS management is based on peer-
reviewed science; we lead the way for the Nation and, indeed, the world 
in cutting-edge research on a full range of conservation issues, 
including bioenergy, ecological restoration, wildland fire management 
(WFM), forest pests and diseases, and sustainable outdoor recreation.
    Our mission is to work with the American people on all lands to 
sustain all the benefits needed and wanted from their forests and 
grasslands. For example, approximately 80 percent of the Nation's 
freshwater resources originate on forests, and Americans get more than 
one-half of their water supplies from sources that originate in the 
Nation's forests. USFS management, combined with assistance to private 
landowners, helps to protect the single greatest source of drinking 
water in the Nation.
    Jobs are maintained and created through the work of USFS. Millions 
of Americans have forest-related jobs, from forest restoration work to 
recreation use, wood products, grazing, and energy and mineral 
development. In 2010, the National Forests attracted more than 170 
million annual visitors, and recreation use, which alone sustained 
nearly 223,000 jobs while contributing $14.5 billion annually to the 
U.S. economy.
    Water and jobs are only some of the benefits Americans get from 
their forests and grasslands. These lands provide a whole range of 
ecosystem services-- clean air, clean water, fertile soil that provides 
timber, forage, energy, food and fiber, fish and wildlife habitat, 
carbon storage, and opportunities for outdoor recreation just to name a 
few. These critical services to people are now at risk due to declining 
forest health, such as bark beetle infestation in the West. Regional 
drought, invasive species, loss of open space, catastrophic wildfires, 
devastating outbreaks of insects and disease, and the overarching 
challenge of a changing climate are degrading our Nation's natural 
infrastructure--the forests and grasslands that Americans depend on for 
so many services, values, and benefits.
    By making targeted investments in the landscapes most at risk, we 
can restore healthy, resilient forests and grasslands, provide 
recreational and hunting access, and provide forest products for the 
benefit of all Americans. Our fiscal year 2013 budget request is 
designed to do just that by working with partners across borders and 
boundaries at a landscape level. Our focus on landscape-scale 
conservation dovetails with broader administration priorities, 
including the President's America's Great Outdoors Initiative, the 
Secretary's ``All-Lands'' vision, and the Department's high-priority 
goal for enhancing water resources. Landscape-scale conservation is 
designed to maintain and enhance the resilience and productivity of the 
Nation's forests and grasslands through targeted investments in natural 
infrastructure. Our investments will put Americans back to work, 
maintaining and creating jobs and economic opportunities for both rural 
and urban Americans.

             FISCAL YEAR 2013 BUDGET REQUEST AND PRIORITIES

    The fiscal year 2013 President's budget requests $4.86 billion for 
USFS, an increase of $15.5 million more than the 2012 appropriated 
level. This budget responds to the public's desire for the conservation 
and stewardship of the Nation's forests and grasslands. Through 
strategic partnerships, we accomplish more work that yields benefits 
for all Americans, while sustaining forest and grassland ecosystems for 
future generations. In these tough economic times, this budget balances 
spending on priorities against reductions. It establishes spending on 
conservation principles and natural resource development needed by the 
public and for the Nation's economy. USFS managers will continue to 
scrutinize spending and programs to ensure the public's investment is 
used wisely toward safely achieving key outcomes and shared priorities.
    USFS's fiscal year 2013 President's budget prioritizes USFS funding 
in three themes:
  --restoration;
  --communities; and
  --fire.
    Our priorities are designed to respond to the needs of the American 
public. The President's budget aligns with the Secretary's ``All 
Lands'' vision to meet the challenges of ecological restoration through 
collaborative approaches to address forest mortality and live tree 
density, invasive species and watershed degradation. The budget request 
will engage communities and help Americans reconnect to the outdoors, 
expand on recreation benefits and create a wide range of opportunities 
for economic expansion to retain and create jobs. The budget request 
also fosters partnering with communities and cooperating agencies to 
reduce the threat of wildland fires to people, property and watersheds.

                           RESTORATION THEME

    With the current threats from insects and disease, wildfire, urban 
development, and impacts of a changing climate, active restoration is a 
key component of our fiscal year 2013 budget strategy. To achieve our 
restoration goals, we engage a broad set of partners in active forest 
management at large, landscape scales and apply peer-reviewed science 
related to forest disturbances, fire management, and the effects of a 
changing climate. Our restoration efforts are guided by a continuous 
cycle of assessing, implementing, and adapting based on information 
from inventory and monitoring efforts. This strategy will yield a 
variety of forest products and restore the structure, function, 
composition, and processes of healthy, resilient ecosystems across the 
Nation.
    Restoration means jobs and economic opportunities. In order to 
maintain forest-related jobs we are requesting permanent authority for 
stewardship contracting. This authority allows the agency to accomplish 
collaborative restoration work at a landscape scale. Current authority 
for stewardship contracting expires in September 2013.

                 LANDSCAPE SCALE RESTORATION PRIORITIES

    Through active forest management, USFS is restoring ecosystem 
structure, functions, and processes in order to improve the health and 
resilience of ecosystems across large landscapes. Through the proposed 
Integrated Resource Restoration (IRR) program, we expect to continue to 
collaborate using an inclusive process to find common ground across the 
many stakeholders and to leverage our investments for broader 
conservation impacts. IRR blends a cross-section of forest management 
activities, such as forest thinning to reduce hazardous fuels, 
decommissioning roads, and removal of fish passage barriers--all of 
which lead to improved forest and grassland health and watershed 
function. The Watershed Condition Framework, released in 2011, will 
help managers prioritize IRR activities. This framework provides a 
nationally consistent approach for classifying watershed conditions and 
allows us to track the number of watersheds that move to an improved 
condition in the long term.
    In fiscal year 2011, we restored or enhanced more than 4.9 million 
acres of both public and private lands. We will continue to invest in 
and accomplish restoration on the ground. In fiscal year 2013, through 
IRR we propose to restore or sustain 2.6 million acres on National 
Forest System lands; provide 2.8 billion board feet of timber; 
decommission more than 2,000 miles of road; and restore or enhance 
2,750 miles of stream habitat. By focusing on restoration outcomes, the 
IRR program empowers USFS managers and local communities to find the 
best, most-efficient way to meet their ecological, economic, and social 
objectives. For example, a landscape thinning project may be 
accomplished under a combination of timber sales and stewardship 
contracts which reduces the threat of catastrophic wildfire, improves 
forest and watershed health and resilience, and removes unneeded 
erosion prone roads. These outcomes help reduce risk from threats like 
fire, insects, and diseases; provide clean, low-cost drinking water to 
communities; and maintain local infrastructure and jobs by creating 
economic opportunities such as uses for biomass and other forest 
products.
    Our Forest Health Management program provides insect, disease, and 
invasive plant survey and monitoring information on forest health 
conditions on Federal and non-Federal (cooperative) lands and provides 
technical and financial assistance to prevent, suppress, and control 
outbreaks threatening forest resources and watershed conditions. Forest 
Health Management helps to implement the States' Forest Action Plans 
and focuses on the highest-priority areas and on high-priority pests, 
as identified by mapping and surveys. In fiscal year 2013, Forest 
Health Management will continue to utilize science, active land 
management, and technology transfer expertise to restore and sustain 
forest landscapes, across urban, private, State, tribal, and Federal 
forests, and create private sector jobs because of the expertise 
required to carry out this work.
    The Collaborative Forest Landscape Restoration Program is a high-
priority program that embodies our integrative, collaborative, 
landscape-scale restoration focus. In fiscal year 2011, Collaborative 
Forest Landscape Restoration projects implemented treatments to restore 
ecosystem resilience and adaptive capacity while generating forest 
products to help support local infrastructure and economies. Forest 
vegetation was improved or established on more than 26,000 acres; 121 
million board feet of timber was sold; and approximately 268,000 green 
tons of woody biomass was made available for biomass or bioenergy-
related production. Cooperators played a substantial role in fiscal 
year 2011 by providing more than $8 million in additional funding. The 
fiscal year 2013 request supports the community-based Collaborative 
Forest Landscape Restoration projects chosen in fiscal year 2010 and 
fiscal year 2012. The Collaborative Forest Landscape Restoration 
Program is creating job stability by supplying a reliable wood and 
biomass supply for forest products and bioenergy production; improving 
forest health and wildlife habitat; and reducing fire suppression costs 
in overgrown forests.

                          RESEARCH PRIORITIES

    USFS houses the world's largest forestry research organization. We 
conduct research that develops new technologies and brings cutting-edge 
science to bear on the sustainable management of the Nation's forests 
and rangelands. Long-term research from our experimental forests and 
rangelands contributes to an understanding of the impacts of forest 
disturbance on the natural and cultural resources of U.S. landscapes. 
This knowledge assists public and private land managers in identifying 
strategies to mitigate and adapt to forest stressors. Rigorous, applied 
research is also key to supporting new and emerging markets with 
innovations that enhance and diversify the forest products industry. 
Private investment in the forestry sector relies on USFS research. 
Finally, our social science research is critical to appropriately 
aligning agency activities with society's values and priorities for the 
Nation's natural resources and public lands.
    The proposed funding will maintain essential levels of research in 
our high-priority and strategic program areas to ensure that we 
develop, apply, and deliver new knowledge and technologies that support 
sustainable management objectives. One high-priority program is Forest 
Inventory and Analysis, which provides the resource data, analysis, and 
tools needed to assess current status and trends of forests; management 
options and impacts; and threats such as fire, insects, and disease. In 
fiscal year 2011, USFS's Research and Development deputy area 
implemented the Forest Inventory and Analysis annual forest sampling in 
all 50 States (though we have not been able to sample interior Alaska), 
providing accessible data for 96 percent of the Nation. The data 
provides important information for private forest landowners to use in 
developing management objectives for sustainable management of private 
forests. In fiscal year 2013, Forest Inventory and Analysis will 
continue in all 50 States and seven reports will be published.

             PLANNING, MONITORING, AND ANALYSIS PRIORITIES

    Restoration efforts are guided by a continuous cycle of assessment, 
project planning and implementation, and adaptation based on 
information from inventory and monitoring. Consistent with the USFS's 
priority of landscape-scale conservation, our proposed Planning Rule 
emphasizes a collaborative, science-based approach with broad-scale 
monitoring strategies at the regional and national level for the 
National Forest System. USFS managers collaborate with a wide variety 
of stakeholders to consider all interests affected or influenced by 
land management planning and project level implementation decisions. We 
are integrating and improving monitoring databases to enhance 
efficiency and transparency. These monitoring data provide baseline 
information from which managers plan the mix of goods and services for 
individual national forests and frame objectives for planning and 
subsequent restoration activities. The data helps managers set 
conservation objectives to sustain the health, diversity, and 
productivity of the National Forest System.
    This budget proposes consolidation of the Land Management Planning 
and Inventory and Monitoring programs to form the single, integrated 
program of Land Management Planning Assessments and Monitoring. This 
new budget structure highlights the connectedness of these activities 
under the proposed Planning Rule. High-priority resource issues include 
watershed and ecological conditions; habitat needs for a number of 
species; visitor use and recreation objectives; forest disturbances; 
and other local, regional and national objectives. USFS units completed 
58 plan assessments in fiscal year 2011--an initial step for 
determining the need to revise or amend land management plans in 
response to changing ecological, social, and economic conditions.

                           COMMUNITIES THEME

    Communities continue to be a priority for USFS in fiscal year 2013. 
We are committed to engaging communities across the Nation to reconnect 
with the outdoors, expand recreation benefits, and harness the many 
economic opportunities our land management activities create in a way 
that supports diverse employment in forest-dependent communities. As 
part of the President's fiscal year 2013 budget, we request 
reauthorization of the Secure Rural Schools and Community Self-
Determination Act of 2000 for 5 years. The fiscal year 2013 proposal 
supports rural communities through assuming enactment of the fiscal 
year 2012 President's proposed reauthorization through mandatory 
funding.
    We continue to develop successful collaboration with 
municipalities, nongovernmental organizations, and private companies at 
many levels. Through approximately 7,800 grants and agreements in 
fiscal year 2011, we engaged a wide circle of partners in land 
management projects and activities, leveraging agency investment for an 
additional $616 million in partner contributions. In fiscal year 2013, 
this collaboration will continue to expand recreation opportunities, 
reconnect people with the outdoors, and use land management activities 
to create employment and sustain communities. Our budget request 
includes proposed language that would authorize the Secretary to enter 
into agreements with interpretive associations (including scientific, 
historical, educational, and other societies, organizations, and 
associations) to enhance visitor awareness and knowledge of the 
Nation's natural resources and cultural heritage, and to enhance and 
leverage our collective interpretative efforts. Based on our current 
efforts, we know that increasing collaboration with local communities 
can move conservation efforts from a scale of thousands of acres to 
hundreds of thousands of acres. The President's fiscal year 2013 budget 
strategically allocates resources to support exemplary local 
stewardship and collaboration models and to catalyze new partnerships 
and innovations.

                LANDSCAPE-SCALE CONSERVATION PRIORITIES

    Restoration projects across broad Federal landscapes, such as the 
Collaborative Forest Landscape Restoration Program, are not sufficient 
alone to address the restoration needs and challenges of today. USFS's 
approach to land management focuses on landscape-scale outcomes through 
cross-boundary landscape conservation. We consider current and desired 
resource conditions across all ownerships--putting national forests and 
grasslands in the broader social, economic, and ecological context of 
the entire landscapes. Considering the well-being of communities 
adjacent to national forests, as well as urban populations that depend 
on forest-derived ecosystem services such as water filtration, is a top 
priority
    In fiscal year 2011, our State and Private Forestry programs 
competitively allocated $19.8 million to State Foresters, supporting 72 
projects in 47 States. These allocations enable USFS to leverage more 
than $21 million in partners dollars and in-kind contributions. In 
fiscal year 2013, we propose to build on the success of our recent 
redesign of State and Private Forestry by combining funds into a 
Landscape Scale Restoration Program to continue our work with the State 
Foresters and engage multiple landowners across boundaries. This 
program helps address challenges like forest fragmentation and the 
conversion of forestland due to urbanization and other land uses. 
Through competitive grants, it will implement innovative projects that 
address the greatest threats to forest sustainability, as identified by 
States in their Forest Action Plans.
    The Forest Legacy Program is an incentive-based approach that uses 
easements to permanently protect non-Federal forest lands vital for 
wildlife habitat and rural jobs. The focus is on forest lands at risk 
of conversion to other (non-forest) land uses. To date, more than 2 
million forested acres have been protected from conversion, ensuring a 
robust natural infrastructure to support rural jobs in the forest 
sector.
    Through Land Acquisition, we work to consolidate non-USFS 
properties within or adjacent to national forest boundaries. These 
acquisitions protect critical ecosystem connectivity, enhance visitor 
access, and reduce expenditures associated with boundary management and 
fire suppression. This request includes up to $25 million for support 
of the Federal Interagency Collaborative Land and Water Conservation 
Fund Initiative. This interagency partnership with the Department of 
the Interior will guide acquisitions in support of objectives set by 
the America's Great Outdoors Initiative, achieving targeted, 
coordinated Federal acquisitions that are locally driven and supported 
by local governments. The request also includes up to $5 million to 
acquire land to open up additional access for recreational purposes, 
specifically to increase priority recreation access to National Forests 
System lands. USFS will use the funds to acquire parcels that provide 
access to National Forest System lands whereby access is not currently 
available or is impeded.
    Just as we recognize the importance of conserving working forest 
lands in rural areas, we also support the creation of community forests 
that connect urban populations to nearby outdoor areas. Through the 
Community Forest and Open Space Program, we fund cost-share (matching) 
grants for the acquisition of community forests that provide public 
recreation and watershed benefits. Such benefits include enhanced 
drinking water quality, wildlife habitat, forest management jobs, and 
opportunities for wildlife viewing, hunting, fishing, and other outdoor 
experiences readily accessible to urban populations. In October 2011, 
USFS issued regulations to ensure a consistent and transparent program. 
We are in the process of soliciting applications to award the first 
projects.

                    RECREATION AND TRAILS PRIORITIES

    USFS lands are a public treasure providing unparalleled outdoor 
recreation opportunities. Population growth and loss of open spaces 
contribute to ever-greater demand for high-quality recreation 
opportunities. Annually, more than 170 million visitors enjoy 
activities such as camping, picnicking, skiing, fishing, and hunting. 
The Recreation, Heritage and Wilderness Program provides the 
interpretive, outreach and infrastructure needs vital to connecting 
Americans to the great outdoors.
    In response to the America's Great Outdoors Initiative, we are 
improving recreational access and expanding opportunities for youth and 
diverse populations. The Youth Conservation Corps creates jobs, as do 
expanded opportunities for private sector outfitters, guides, ski 
areas, and resorts. Through the Federal Interagency Council on Outdoor 
Recreation, we are implementing actions to eliminate redundancy and 
create seamless programs between the Federal agencies to increase 
recreation opportunities.
    Our Trails program ensures public safety and backcountry access 
through the operation, maintenance, rehabilitation, and improvement of 
National Forest System trails, serving a wide constituency of visitors 
at a relatively low cost. In fiscal year 2013, we are prioritizing the 
designation of trails for motorized use, consistent with the Travel 
Management Rule. Our trail system also accommodates nonmotorized uses 
such as cross-country skiing, hiking, hunting, fishing, wildlife 
viewing, horseback riding, and mountain biking. In fiscal year 2011, 
partners contributed approximately $7 million and maintained almost 
5,500 miles of national and scenic trails. Through strengthened 
partnerships in fiscal year 2013, we will emphasize trail stewardship 
activities and youth programs.
    Our proposed legislative language to make permanent our authority 
on administration of rights-of-way and land uses would ensure timely 
customer service, reduce the potential liability to the United States 
associated with uses on National Forest System lands under an expired 
authorization, and enable us to accept new applications to expand our 
support for local and regional economies. Special uses enable a wide 
range of public services that support thousands of jobs, from large-
scale energy and communication transmission to small-scale outfitters 
and guides. Processing these permit applications is time intensive and 
expensive. Recovered funds will remain at the local office of 
collection to enable more-timely service to permit holders and 
applicants. The existing authority expires on September 30, 2012.
    USFS assists in developing and sustaining urban forest 
infrastructure within cities, as well as connecting urban residents--
especially youth--to recreation experiences in national forests. With 
more than 83 percent of all Americans living in metropolitan areas, 
USFS Urban and Community Forestry Program supports the active 
management of forests and trees in more than 7,000 communities, 
reaching 194 million people in fiscal year 2011. This program seeks to 
optimize benefits from urban forests by planting trees for carbon 
sequestration and energy conservation objectives. USFS research and 
development helps to create more livable and desirable urban areas and 
improve urban ecosystem services, like cleaner city air and water, 
through leading science and new technology. In New York City, for 
example, USFS's iTree tool provided baseline information about trees 
that has been a critical foundation for the MillionTreesNYC campaign. 
The Conservation Education program--through initiatives like 
``Children's Forests'' and ``More Kids in the Woods''--builds on both 
long-term and new partnerships. In fiscal year 2011, more than 5 
million children and families participated in environmental education, 
recreation, and related literacy programs on public lands and waters, 
increasing their understanding of the natural world and its benefits.

              FACILITIES AND ROADS MAINTENANCE PRIORITIES

    Maintenance of physical infrastructure--including the best and safe 
use of over 40,200 buildings for administrative, recreation-related, 
and other uses, approximately 373,000 miles of roads (102,000 miles are 
closed, but provide options for future use) and 6,200 bridges--is an 
important priority in fulfilling USFS mission. Maintaining our 
facilities saves money over time and provides for safe, pleasurable, 
and accessible sites for the public's enjoyment while recreating. In 
fiscal year 2013, strategic investments in facilities and 
infrastructure maintenance will reduce our agency's environmental 
footprint and save money by lowering energy costs. This budget request 
proposes deferring new facilities construction when other cost-
effective and reasonable options exist.
    This budget request also prioritizes road maintenance to ensure we 
protect water quality, meet Highway Safety Act standards, and meet the 
need for motorized use, as identified on USFS motor vehicle use maps. 
We also emphasize replacing deficient bridges, upgrading stream 
crossings, and providing a transportation system to and from timber and 
stewardship project sites that support local jobs and our collaborative 
restoration priorities.

                               FIRE THEME

    Our final priority for the fiscal year 2013 budget request reflects 
the President's commitment to a responsible budget for WFM. We will 
continue to partner with States, communities, and other Federal 
agencies to maximize our suppression capabilities and support community 
efforts to reduce direct threats from wild fires.
    Wildland fire is a natural and necessary component of restoring 
ecosystem resilience in fire-adapted ecosystems. In many places, drier 
conditions and longer fire seasons, along with invasive species like 
cheatgrass, have further altered the timing and pattern of fire, making 
fires bigger and harder to suppress. Addressing these challenges will 
reduce fire risk to communities and maintain and create jobs through 
activities that restore ecosystem resilience.
    The cost and complexity of both fuels treatments to reduce fire 
risk and wildfire suppression have gone up due to growing numbers of 
housing developments adjacent to wildlands and other factors. In this 
context of more costly fire management, we continue to refine our use 
of decision-support tools. These tools help us allocate resources more 
efficiently and to adopt appropriate risk management principles. 
Further, we responded to the Federal Land Assistance, Management and 
Enhancement (FLAME) Act of 2009 by collaborating broadly to develop the 
new National Cohesive Wildland Fire Strategy. The strategy is designed 
to:
  --Restore and maintain resilient landscapes at a regional and sub-
        regional scale;
  --Create fire-adapted communities; and
  --Respond to wildfire effectively through partnerships among local, 
        State, tribal, and Federal fire organizations.
    The Nation depends on USFS to take proactive measures to reduce the 
threat of wildfire. By working proactively to re-establish fire-adapted 
ecosystems, we can reduce the costs associated with catastrophic 
wildfire. The proposed budget for fiscal year 2013 would direct fire 
management resources toward the highest-priority areas while maximizing 
cost-effectiveness. We are ready to protect life, property and 
community, and public safety.

                       FUELS REDUCTION PRIORITIES

    The Hazardous Fuels budget line item for fiscal year 2013 focuses 
on treatments in the wildland-urban interface (WUI) and other high-
priority areas with a target of 1 million acres vital to protecting 
lives, property and public infrastructure. The priority for these funds 
is in WUI communities that are working to achieve firewise standards, 
have demonstrated local investment, and that have developed a community 
wildfire protection plan. The agency will continue to emphasize the 
importance of community wildfire protection plans by prioritizing 
hazardous fuels treatments in WUI areas that are identified in these 
plans. This funding is also used for grants that encourage woody 
biomass utilization and to facilitate market development for the 
biomass removed from the landscape through fuels treatments.
    Biomass for energy is an important byproduct of hazardous fuels 
reduction and restoration work. Currently one-quarter of all renewable 
energy consumption comes from wood. Biomass utilization is important 
because it helps diversify the forest products industry and creates new 
markets that ensure alternative uses for material that would otherwise 
be piled or burned at the treatment site. With active management, 
America's forests can sustainably supply woody biomass for fuels and 
high-value chemicals and help meet national energy, environmental, and 
employment goals.
    In fiscal year 2013, USFS plans to reach out to municipal water 
providers and pursue additional investments to protect water supplies. 
For example, three of the five major Front Range water utilities (in 
Denver, Aurora, and Colorado Springs) have invested nearly $34 million 
in forest thinning treatments to reduce wildfire risks. Our strategy is 
to attract investments from all Front Range cities and to substantially 
increase amounts invested by those cities and other partners through 
matching USFS funds.
    The hazardous fuels management efforts compliment restoration 
activities conducted through Integrated Resource Restoration and the 
Collaborative Forest Landscape Restoration Program to reduce fuels, 
restore forest landscapes, and protect communities. These projects 
leverage partner investments through innovative collaboration to 
restore landscape resilience across 50,000 acres or more. Contracted 
services for fuels reduction in core forest zones provide jobs, as do 
the forest products and woody biomass utilization activities that 
result from fuels removal and reduction.

                        PREPAREDNESS PRIORITIES

    The second way we are responsibly addressing WFM with this budget 
request is through our preparedness program, which ensures the 
capability to protect life, property, and natural resources while 
assuring an appropriate, risk informed and effective response to 
wildfires, consistent with land and resource management objectives.
    The preparedness program pre-positions resources as needed to 
ensure an appropriate, risk-informed, and effective wildfire response. 
This budget also includes $24 million to pay for the increased costs of 
modernizing the firefighting large airtanker fleet. We are soliciting 
bids for modern airtankers to complement the remaining 11 in our fleet.

                         SUPPRESSION PRIORITIES

    The suppression program combined with the FLAME Wildfire 
Suppression Reserve Fund, meets the funding level at the 10-year 
average cost of suppression for fiscal year 2013. Wildland fires 
continue to be larger and more difficult to suppress due to many 
factors including longer fire seasons, fuel accumulation, and the 
increased size and complexity of housing developments adjacent to or in 
forested lands.
    In fiscal year 2011, USFS contained more than 97 percent of the 
fires we managed during initial attack. Wildfire response 
decisionmaking is evolving based on risk-informed analysis that reduces 
exposure to wildland firefighters while ensuring that high-value 
resources are protected. The results of these decisions allow us to 
manage fires more cost-effectively while achieving agency land 
management objectives by enabling fire to play its natural role in 
restoring landscapes. For fiscal year 2013, the suppression, 
preparedness and FLAME budget request continues to emphasize our 
efforts related to strategic risk assessment and programs to improve 
wildland fire operational decisions and meet overriding objectives of 
maintaining public and firefighter safety. These efforts are expected 
to result in significant increases in the effective and efficient use 
of agency resources.
    For the few fires that escaped initial attack, the percentage that 
exceeded expected containment costs fell from 39.7 percent in fiscal 
year 2010 to 20.8 percent in fiscal year 2011, a notable achievement in 
responsibly budgeting for fire suppression. Implementing the agency's 
broader restoration goals will lead to further progress. Given the 
highly variable nature of fire seasons from year to year, the FLAME 
Wildfire Suppression Reserve Fund ensures our ability to cover the cost 
of large, complex fires that escape initial attack.

             GAINING EFFICIENCIES AND COST CONTROL MEASURES

    We must be efficient and effective in meeting our mission and 
delivering services to the American people. We have been gaining 
efficiencies and managing costs and our workforce to achieve our 
mission in the past and will continue to do so. We are making difficult 
choices to work better and leaner to live within constrained budgets. 
USFS's fiscal year 2012 target for cost savings is $44 million. Reduced 
travel accounts for $14 million of these savings. An additional $30 
million is achieved through new acquisition management procedures 
including the use of strategic sourcing, competitive and/or 
performance-based contracts, and ongoing training of contracting staff 
to better manage contracts.
    Our efforts to gain efficiency in fiscal year 2012 and this fiscal 
year 2013 budget request focus on implementing the President's 
Executive order, ``Promoting Efficient Spending''. We identified 
reduced spending levels in travel, information technology, printing, 
fleet and promotional items. We have planned a $100 million reduction 
in cost pools over the course of fiscal year 2013 and fiscal year 2014. 
We are also implementing the Department of Agriculture (USDA) 
Administrative Solutions Project to reduce redundancies and take 
advantage of existing resources across USDA. We will also continue our 
strategic investments in safety and cultural transformation for our 
employees. These efforts will enable employees to spend less time on 
operational functions and more time on priority work in a safe, 
healthy, and productive manner. We expect these efforts to result in 
costs savings in the future. We also estimate that our workforce will 
be reduced by nearly 1,500 full-time equivalents between fiscal year 
2011 and fiscal year 2013. This level of reduction is within our 
average annual attrition rate. We will continue to manage our workforce 
and organizational changes to provide service at the local level.

                               CONCLUSION

    USFS's fiscal year 2013 President's budget aligns with priorities 
set by the administration and USDA while balancing the need for fiscal 
restraint. The magnitude and urgency of forest restoration work, along 
with the demand for safe, accessible outdoor recreation opportunities, 
are growing in a context of declining budgets. This means that the 
agency will face unprecedented fiscal challenges in the next few years. 
USFS must act strategically and tackle fiscal challenges directly, 
focusing our resources on continuing to provide services and goods to 
the American public.
    Through landscape-scale conservation, our three funding priorities 
of restoration, communities, and fire will pass on to future 
generations the water, wildlife habitat, renewable resources, scenic 
beauty, and other natural riches that Americans enjoy today from their 
forests and grasslands.

    Mr. Tidwell. Again, Mr. Chairman, I want to thank you for 
this opportunity to be here, and I look forward to answering 
your questions.
    Senator Reed. Well, thank you very much, Chief. We will 
hear from Senator Feinstein. Senator Feinstein, do you want to 
make a brief comment, as our colleagues have, before we begin 
the questioning?
    Senator Feinstein. I would like to talk about firefighting, 
so I will wait my turn. Thank you very much.
    Senator Reed. Thank you, Senator Feinstein.
    Again, Chief, thank you for not only your testimony today, 
but your leadership. We'll do 8-minute rounds, and I'll 
anticipate we will do at least two, for those who want to stay 
for the second round.
    Senator Feinstein, Senator Murkowski, and I, all have 
mentioned the issue of fire suppression. One of the annual 
challenges we have is to ensure you have the appropriate 
resources to deal with fires.
    You might begin by letting us know what your sense is for 
this fire season, given the weather, modeling and other data 
that you have, as to will you have the resources, do you expect 
a very challenging fire season this year?

                            FIRE SEASON 2012

    Mr. Tidwell. Mr. Chairman, our predictive services, when 
they put out their last report the first of April, indicates 
that we will have a fire season similar to what we had last 
year. That is based on getting some favorable weather that will 
continue to occur in the Northwestern part of the country and 
also through the Central part.
    If that does not occur, then we anticipate that we will 
probably have a more active fire season than we did last year. 
We are prepared with the resources, the crews that are in 
place, the large helicopters, and we are moving forward with 
acquiring some additional large airtankers under contract, to 
better enable us to deal with this fire season.
    A lot will depend on the weather. But we have already seen 
some very active fire behavior here in the East. We had the 
tragic fire out in Colorado just a few weeks ago in March. 
Today, we have a very large fire burning here in Virginia, on 
the George Washington and Jefferson National Forests. We have a 
Type 1 team that we have had to deploy under that fire today.
    We are seeing an active fire season right now, and a lot 
will depend on how the weather develops over the next 30 to 60 
days; that will determine just how difficult this season will 
be.
    Senator Reed. Thank you. Along with Senator Feinstein, I'm 
interested in your aircraft modernization program.
    In February, you released a strategy, a large airtanker 
modernization strategy; there's been several strategies, but 
what we need is a plan. Specific numbers of aircraft, whether 
they'll be acquired, or they'll be leased. To what extent will 
you have to rely upon Air National Guard C130J's to supplement, 
or helicopter supplements.
    Can you describe the plan you have in place, for this 
season, for the aircraft, the number you'll have available, the 
types of availability, and the adequacy of that plan?

                        AIRTANKER MODERNIZATION

    Mr. Tidwell. Well, our plan not only for this year but for 
the future is to move forward and acquire additional contracted 
aircraft. For this year, we expect to bring on three additional 
aircraft to supplement what we currently have. This will give 
us 14 large airtankers for this year.
    We are also bringing on two water scoopers down from Alaska 
to augment the fleet down here, and we will also have one very 
large airtanker that will be available.
    In addition to that, we have brought on some additional, 
Type 1 helicopters. These are helicopters that can carry almost 
as much water as the large airtankers can retardant.
    They are very effective and a little more expensive, but we 
have brought on additional large helicopters for this year.
    As we move forward, we expect to bring on 10 additional 
aircraft next year. These will all be contracted aircraft. This 
is what the $24 million part of our request is for. We 
anticipate that the new aircraft will be a faster aircraft, and 
they will have a little larger capacity.
    It will be a little more expensive than what our current 
costs are. We are going to need $24 million to be able to cover 
the additional costs for probably up to an additional 13 planes 
next year.
    For next year, I anticipate we are going to be in much 
better shape. This year, we are down and we will be down at 
least 4 large airtankers from what we had at the start of last 
season, but we are bringing on those additional large 
helicopters.

                  MODULAR AIRBORNE FIREFIGHTING SYSTEM

    In addition to that, we will probably have to rely and 
depend on the Modular Airborne FireFighting System (MAFFS) 
units again, like we did last year.
    We have been using those MAFFS planes for 40 years. Even in 
the past when we had the large number of large airtankers we 
would often hit periods of time during an active fire season 
where we needed to rely on that additional capacity.
    It works out very well because they are ready to go early 
in the season. They are ready to go late in the season, and we 
have continued to appreciate the partnership we have with those 
units. I can assure you that we are in constant communication 
to make sure that if those planes would not be available, that 
we would know about it ahead of time, and then we can make 
additional plans.
    All indications are that those units are ready, and ready 
to fly when we need them. We will probably have to rely on 
those a little bit more than we have in the past.
    Senator Reed. My final question with respect to this issue 
of the aircraft is that I think the number in this year and 
next year is roughly 13?
    Mr. Tidwell. I expect we will probably have 14 this year.
    Senator Reed. Fourteen. But your long-term strategy calls 
for somewhere between 18 and 28.
    Mr. Tidwell. Yes.
    Senator Reed. So the obvious question is, how do we get 
from 14, let's say, to double that literally in the timeframe 
you're talking about with your strategy?

                      AIRTANKER LONG-TERM STRATEGY

    Mr. Tidwell. With the request for proposals that we put out 
a few months ago, we anticipate to bring on 3 additional 
aircraft this year, and then up to 10 additional aircraft next 
year. Those will all be contracted.
    An ideal situation would be at this time next year, I would 
be reporting to you that we have 23 to 24 aircraft that are 
available for the 2013 fire season.
    Senator Reed. And that would be based on the $24 million 
incremented funding?
    Mr. Tidwell. Yes.
    Senator Reed. Very good.
    Just a final question I have, and I might revisit this one, 
and that's the integrated resource restoration.
    You know, last year's appropriations bill provided the 
flexibility to conduct your pilot in three regions. This year's 
budget with full funding without essentially the results of the 
pilot, in a way, might be anticipating the results.
    We would like to see the results. So, can you comment very 
briefly?

                    INTEGRATED RESOURCE RESTORATION

    Mr. Tidwell. Mr. Chairman, we will be sending up our plan 
that not only lays out how those funds are allocated, but how 
they will be used, and how they will be able to account for 
what is produced from those funds throughout the year.
    At the end of the year, I look forward to when we can come 
up here and actually show what we have accomplished by having 
the flexibility that this fund affords.
    I recognize that we need to first show you that this is a 
better way through the pilot. At the same time, I would not be 
proposing this if I did not think it was a better way, and if I 
did not have the confidence that we can demonstrate that this 
will be better.
    So I understand I first need to prove it, and we will be 
doing that and I look forward to working with you.
    Senator Reed. Thank you very much.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    Just to follow on that, Chief. If I understand what you are 
saying, you are asking within this budget request for the full-
on IRR proposal. And yet, you say you are not going to be in a 
position until the end of this year to basically be able to 
show the accomplishments.
    Mr. Tidwell. Yes.
    Senator Murkowski. So this is kind of a ``trust me'' 
moment. And I think you heard last year from this subcommittee 
that we were willing to move forward with the pilot, but we 
wanted to see step by step.
    So, since we're in this ``trust me'' time, can you tell me 
how, whether or not, you've issued any guidance to the field on 
how to implement the authority, what performance measures you 
are using currently to evaluate the pilot, and then, how we'll 
be able to assess whether or not this pilot is actually more 
effective than how the regions operated under the current 
budget structure?
    Can you give me a little bit more than just say, wait until 
the end of the year?
    Mr. Tidwell. Yes, Senator.

               INTEGRATED RESOURCE RESTORATION DIRECTION

    As soon as the bill was passed, we sent out directions to 
the three pilot regions about how to move forward with using 
the Integrated Resource Restoration budget line item, and then 
allocated their percentage of those funds to those three 
regions.
    At the same time, we laid out that they need to be able to 
track our accomplishments: the amount of timber that's 
harvested, the number of acres that are going to be restored, 
watershed conditions improved, the number of miles of stream 
that are restored, and the miles of road that are 
decommissioned.
    In addition to that, we set up a watershed condition 
framework. We had taken every one of the watersheds across all 
of the national forests and grasslands, and developed criteria 
that puts them in a specific category so we know what their 
current condition is.
    These three regions would then be able to track how they 
actually made a change and improved the condition in those 
watersheds in addition to the outputs that we will be tracking.
    This will be part of the plan that we will have up here 
hopefully in the next few weeks to be able to share with you. 
Then, at the end of the year, to be able to come up here and 
show what work we were able to get done.
    And then also to compare with what we have done in the 
past, in these same regions, with the same level of funding.
    Senator Murkowski. And I think we'll all look forward to 
seeing that plan when you bring it up then.
    Let me ask you a little bit about this lawsuit out there, 
the iSequoia ForestKeeper  decision that deals with the 
categorical exclusions.
    As you heard in my opening comments, I think that this 
could have some considerable repercussions within the Agency. 
Can you tell me what the current legal status of the case is, 
and whether or not the USFS plans to appeal the decision?

                    SEQUOIA FORESTKEEPER VS. TIDWELL

    Mr. Tidwell. There have been numerous discussions with our 
attorneys about what the next course to look at this, and a 
decision has not been made on what is the next legal step to 
take.
    Immediately though, we started looking at how we could move 
forward. We sent out direction to the field that for these 
projects that would be covered under a decision memo, we wanted 
them to go ahead and put out a 30-day notice, for notice and 
comment.
    If we don't receive any substantive comments, then we can 
go ahead and move forward with the project. As you pointed out, 
that if we do, then we also have to allow for an appeal process 
that could easily delay these projects up to 140 days like you 
mentioned.
    There are 600 of these projects that were ready to move 
forward in the next 90 days. Not only on some of the minimal 
operations that you mentioned in Alaska, but there are more 
than 200 associated with oil and gas operations, primarily in 
North Dakota.
    More than 90 are hazardous fuel projects that we had 
planned to move forward with and do that work.
    Senator Murkowski. Is that 600 projects across the Nation 
then in all of these different areas? Whether it's oil and gas, 
mining, et cetera.

                           IMPACTED PROJECTS

    Mr. Tidwell. Yes. There are 600 total that were planned to 
go forward in the next 90 days. Of that 600, there are more 
than 200 that are associated with oil and gas operations, and 
more than 90 with hazardous fuels. There are at least six in 
Alaska, just dealing with mining activities.
    Senator Murkowski. So, will the USFS notify these permit 
holders and the contract holders if their operations next 
season are going to be delayed or cancelled because of this 
decision out there? How does that work?
    Mr. Tidwell. We will need to do that. I am optimistic that 
many of these projects, after the 30-day time limit for public 
notice and comment, will be able to go forward.
    As you mentioned, the one project, I would assume that is 
one that after 30 days, we would not get any substantive 
comments on it, so we could just go forward with it.
    Senator Murkowski. But, we're assuming that that's going to 
be the case. We get lucky, basically?
    Mr. Tidwell. Well, I need to remain optimistic as much as I 
can on this. I do expect that there will be some, if not many 
of these projects that we will probably need to go through the 
appeal process on, and there will be significant delays.
    Senator Murkowski. Well, and you've been able to detail the 
number of projects. Do we have any estimate on the number of 
jobs that we're talking about, the number of different economic 
activities that could be potentially delayed or held up because 
of this? Have you done that kind of an assessment?

                            ECONOMIC IMPACTS

    Mr. Tidwell. We have not done that yet. That is something 
we could pull together, especially for the projects because of 
our short field season in some parts of the country, that we 
would not be able to implement this year.
    If we need to wait 30 days for notice and comment, that 
will not be a significant impact, and we will be able to move 
forward with those. We will track the potential job impacts, 
and we can get back to you on that.

                    PREDECISIONAL OBJECTION PROCESS

    Senator Murkowski. I'd appreciate that.
    Now, last year, in the Interior, environment, and related 
agencies bill, section 428, we gave you the authority to 
promulgate regs, that use the Healthy Forest Act predecisional 
objection process instead of the process under which the 
Federal court found that you couldn't use the categorical 
exclusions.
    So I guess the question to you is whether or not you plan 
to issue these kinds of regulations pursuant to section 428, 
and whether or not the issuance of these regulations through 
this section would be an opportunity to perhaps fix what we're 
dealing with with this court decision?
    Mr. Tidwell. First, we do plan to move forward with 
rulemaking, to be able to use this predecisional objection 
process, that will actually be a better process. It allows us 
to have that additional discussion before the final decision is 
made.
    It supports our collaborative efforts very well. Part of 
the legal discussion that has been going on is if it would also 
give us an opportunity to address the current court order to 
use common notice and appeals on categorical exclusions.
    I am not sure if it will. It may not because the 
appropriations language was very specific to Environmental 
Assessments (EA) and Environmental Impact Statements (EIS), and 
it did not mention categorical exclusions. It is one of the 
things our attorneys are looking at, and we will have to get 
back to you on that.
    Senator Murkowski. Okay. Can you update the Committee, the 
subcommittee, when you know?
    Mr. Tidwell. Yes.
    Senator Murkowski. I think it is an area where we looked 
and said, okay, we might be able to get around this, this court 
decision, which I think you and I would both agree, has the 
potential to really snarl things up through a process.
    And, if in fact, we have allowed for a fix last year, it 
would certainly seem to me that that would be one way to try to 
approach the problem. So, if you can just keep us current with 
that, I'd appreciate it.
    Mr. Tidwell. I will. I look at the predecisional objection 
process as really a better way. It still provides the 
opportunity, especially on EAs and EIS.
    With categorical exclusions, because of the type of 
projects that we have to do I have already addressed all of the 
potential environmental impacts prior to using the categories.
    Hopefully, we will be able to find a way forward with this 
so that those type of projects can move forward rather quickly.
    Senator Murkowski. Thank you, Mr. Chairman.
    Senator Reed. Thank you very much.
    We are following the early bird rule so I'll recognize 
Senator Tester and then Senator Feinstein.
    Senator Tester. Well, thank you, Mr. Chairman.
    And, once again, I want to thank both you, Chief, and 
Susan, for your service.
    I want to flush out a little bit more about what the 
chairman talked about in his questioning about the planes. The 
number of planes has declined, with tankers from 43 in 2000 to 
11 in 2011.
    I've had the opportunity over the last year to be all over 
the West pretty extensively, and, of course, you know, I farm 
in Montana. So weather is something that I pay particular 
attention to, and I know that the snow pack is claimed to be 
average up in the high elevations. I don't know if that's true. 
I talked to a couple of ranchers this morning and said if 
there's a lot of snow up there, they haven't seen it.
    So, the question becomes that sets us up for a pretty 
potentially big fire year. I know we do a lot of praying and we 
say, you know, if it's the same as last year, I mean, if we get 
decent rainfall, it could be the same as last year. And last 
year, at least in my neck of the woods, it was a pretty decent 
fire season from a cost standpoint.
    You talked about going from 11 to 14 this year. There's 
three more tankers that you're going to contract for. When do 
you anticipate those contracts to be let?

                         AIRTANKER CONTRACTING

    Mr. Tidwell. Hopefully within the next 30 days, we will be 
able to make the decisions on the proposals that were 
submitted.
    Senator Tester. Okay.
    Mr. Tidwell. Then there will be a period of time that the 
aircraft will be able to demonstrate that they can meet our 
standards for retardant and delivery. We are optimistic that we 
will be able to bring on another three planes this year.
    Senator Tester. Okay. And I am familiar that you said that 
these planes are going to be faster so they're going to be a 
little more expensive, and I am familiar with what you're 
talking about.
    The question becomes, is there an analysis to know if the 
delivery of the product onto the fire is more cost beneficial 
with these bigger, more expensive planes? Maybe not bigger, but 
faster planes.

                       AIRTANKER DELIVERY STUDIES

    Mr. Tidwell. The information we have from the studies that 
have been done is that if we have a larger payload, ideally up 
to around 3,000 gallons, and then deliver it in a way that 
penetrates the brush and the heavy timber like up in your 
country, that is the type of delivery system that we need.
    Also, with the larger tank, they can split their loads and 
be able to drop two or maybe three from the same load. So that 
is where the efficiencies are gained.
    We are also moving forward with a study to put additional 
equipment into these aircraft so that we will be able to 
collect more information about their effectiveness. Not only 
how often they hit right where the ground crew are requesting 
retardant, but how it was delivered.
    By this time next year, we are going to have additional 
information that will help us as we move forward with 
determining just what is the right mix of aircraft. I want to 
stress that we are going to need a mix of aircraft. We are 
going to rely on our current contractors to keep delivering 
those resources.
    We are going to need some additional contractors to come 
onboard to provide aircraft for us.
    Senator Tester. Okay. And because you talked about a mix, 
so I do want to talk about helicopters for a second. You said 
that it was potentially--well, maybe not potentially, I don't 
want to put words in your mouth--that there will be additional 
helicopters this year.
    Could you tell me what that increase would be, and where 
we're at, and where it would be after the increase is done?

                        FIREFIGHTING HELICOPTERS

    Mr. Tidwell. We are contracting for four additional of the 
Type 1, which is what we call our heavy helicopter. Last year 
we had 26 of those, and then we had eight Type 2s that were 
available for really large fires.
    In addition, there is another 90 helicopters that are 
available for initial attack. By going with four more of the 
large helicopters, it gives us more capacity than what we had 
last year.
    However, there are additional costs. We had to put another 
$4 million into those contracts just to start the season.
    Senator Tester. Okay. So and I know you're going to say, 
just fine, but can you tell me how confident you are between 
the airtankers and the helicopters that will be available to 
shut the unwanted fires down when they occur in a timely basis 
and effectively deal with the other ones as your management 
plan dictates?

                     FIREFIGHTING ASSET CONFIDENCE

    Mr. Tidwell. I have a lot of confidence in our firefighters 
ability to do the job and the mix of resources. I acknowledge 
we are short of large airtankers. I would feel much more 
comfortable if we had another four, five, or six of those 
available this year.
    We will probably be quick to call on the MAFFS units to 
bring on those additional aircraft. With the MAFFS units, we 
will be well prepared to be able to deal with this fire season.
    However, if it becomes much more active than what we 
currently predict, which it could, there will be times like in 
years past, when there will be a shortage of resources in the 
near term during initial attack. And we will have to deal with 
that just like we have had to in the past.
    Senator Tester. Are you familiar, I talked about a team 
with H.R. 1581? It appears to me that at a time where you guys 
are trying to get some stewardship stuff done, I think you've 
got about a $6 billion backlog in roads as it is, that we're 
going exactly in the wrong direction.
    Hunter and fishermen interests aside, we're going exactly 
in the wrong direction for what you guys are trying to get 
accomplished. Has the Department taken a stand on H.R. 1581 and 
its impact on outdoor activities?

                               H.R. 1581

    Mr. Tidwell. I don't have a position on that bill yet. I 
can tell you that there is very strong support to maintain the 
undeveloped character of our back country, the roadless areas 
in this country, to provide recreational benefits, clean water, 
and wildlife benefits that come out of that land.
    What I want to focus on is being able to address the 
restoration needs and the millions of other acres, the roaded 
part of our country. It is often adjacent to our communities, 
that we need to restore, to make these areas much more 
resilient to fires, insects, and disease.
    You mentioned our road backlog. There are many places in 
the country--because of the erosion--that are coming off of the 
road system, it is limiting some of our management options.
    If we could ever get on top of that to the point where we 
could eliminate those concerns, it would free up and give us 
more flexibility to do restoration work and the timber harvest 
that needs to be done on these lands.
    Senator Tester. I agree.
    Very quickly. Region 1 has been honored to have the 
regional forester become the chief or the deputy chief in the 
USFS. You, in fact, yourself, made this jump.
    We have had now four regional foresters leave the region in 
the last decade and they've been darn good people. You're one 
of them.
    The management and oversight, continuity in that region 
takes a hit because of that. We are in kind of, between a rock 
and a hard place, so to speak, because although we'd love to 
have the regional forester become the person in your position, 
it does impact continuity.
    What steps since Leslie has left are you taking to get a 
new Director and are you concerned about the continuity in 
region 1, being intimately familiar with that region, as I am?

                                REGION 1

    Mr. Tidwell. I am with every region and every station 
whenever we have a change in leadership. I am very pleased with 
the work that the regional foresters have been doing for us.
    I can assure you that the next regional forester, who I can 
at least say will do a better job than I did--I will not say 
she did a better job than the last one.
     I will say that the next person will do a better job than 
I did up there for you.
    Senator Tester. How about the length, the continuity?
    Mr. Tidwell. I would hope in the future that our regional 
foresters can stay in place a little bit longer than at least 
the last couple have stayed up there.
    I can assure you that the people that will be stepping into 
those positions have the experience, they have decades of 
experience in dealing with these resources. When they do step 
in, they will be ready to go and will be able to continue to 
provide the leadership that is necessary in our regions.
    Senator Tester. I appreciate that. They have been top 
flight, I agree. Thank you.
    Senator Reed. Senator Feinstein.
    Senator Feinstein. Thank you very much, Mr. Chairman.
    Mr. Tidwell, you know, I think we're all really very 
concerned about what's happening. The President's budget for 
you is up about 1 percent. And yet, I want to show you fires.
    Here are ``Total Acres Burned By Decade''. And you can see 
from 2002 to 2011, 70,482,958 acres.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    So you can see, there was a decline, 1982 to 1991, and from 
that point on, acreage burned has gone up. Here are the numbers 
of times planes were used.
    Do we have the one on planes? Could we put that up?

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

 Shows the total number of times airtankers were used between 1990 and 
                                 2011.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Shows the number of times a request for a tanker was not filled.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


 The percentage of unfilled requests compared to the sum of filled and 
                           unfilled requests.

    Senator Feinstein. Oh, the number of times planes were 
used.
    And you see the line going straight up. So we have more 
acres burned, more need for planes. And I want my staff to 
bring you down a copy of a letter that you received on March 7 
from CAL FIRE. I don't know if you have that in front of you.
    [The information follows:]
     State of California--Natural Resources Agency,
                Department of Forestry and Fire Protection,
                                     Sacramento, CA, March 7, 2012.
The Honorable Tom Tidwell,
Chief, USDA Forest Service,
Washington, DC.
    Dear Chief Tidwell: The California Department of Forestry and Fire 
Protection (CAL FIRE) and the United States Forest Service (USFS) 
Region 5 have a long history of cooperative fire protection, including 
an integrated air attack program. Air attack bases were located 
throughout the State based on a maximum 20 minute response time to any 
location, including both State Responsibility Area (SRA) and National 
Forest lands. CAL FIRE's fleet of 23-Type 3 airtankers, mixed with the 
assigned Federal Type 1 airtankers, provided a mixture of aircraft to 
meet our joint initial attack goals, as well as the needs of extended 
attack and major fires.
    The reduction in the number of Federal airtankers from 43 in 2000, 
to 11 in 2011, has resulted in significant impacts on this integrated 
system, placing an increasing burden on CAL FIRE aircraft to respond to 
fires on National Forest lands. Initial and extended attack fires on 
Federal lands are increasing the flight hours on CAL FIRE's airtankers 
and reducing their availability for response to new fires.
    The USDA Forest Service Large Airtanker Modernization Strategy 
(Strategy), released on February 10, 2012, is long overdue and is a 
critical step toward identifying the next-generation large airtanker 
platform. I have concerns, however, that the Strategy falls short in 
several areas:
  --The Strategy does not reference the individual needs of the States. 
        The Federal aviation program is critical to meeting the fire 
        protection goals of the States as well as those of the Federal 
        agencies, especially in California. Fire fighting aircraft are 
        a very limited resource and, therefore, it is critical that the 
        national strategy include collaboration with the States to 
        ensure the plan provides for efficient and integrated use of 
        all assets.
  --The identified optimum number of 18 to 28 aircraft is insufficient 
        to meet the needs of the combined Federal, state and local wild 
        land firefighting missions. As the Strategy indicates, the 
        current drought cycle will continue through the next decade, 
        only exacerbating the already dry fuel conditions and potential 
        for extreme fire behavior. Over half of California's most 
        devastating fires have occurred within the last 10 years. The 
        Federal aviation program must build capacity back to a level 
        that adequately supports the initial and extended attack needs, 
        both nationally and within individual states. I am concerned 
        that during periods of multiple large fires in other Regions, 
        California will be left with an insufficient number of Federal 
        aircraft to meet the normal initial and extended attack 
        workload. This places additional burden on CAL FIRE and local 
        government aircraft and risks additional large fires that 
        threaten lives and natural resources.
  --The Strategy identifies a desire to look at dual mission aircraft 
        that can transition from delivering retardant to transporting 
        cargo or fire fighters. It is critical that aircraft identified 
        as airtankers remain dedicated to initial attack response and 
        that retardant systems be designed for the most effective 
        delivery and application of retardant. Switching between 
        multiple functions often leads to a reduction in performance 
        for any given task.
  --The Strategy does not adequately address the potential use of very 
        large airtankers (VLATs), especially for the extended attack 
        incidents. The VLAT should be considered to meet your interim 
        needs, and as part of your long-term strategy. Use of the VLAT 
        on extended attack incidents, where large amounts of retardant 
        are required over extended periods of time, could free up other 
        airtankers for initial attack incidents where they are arguably 
        more effective.
    CAL FIRE has maintained its own aviation program in California for 
many years and has worked very closely with our Federal partners. We 
have a vested interest in an effective national aviation program that 
supports all of our missions. Unless there are a sufficient number of 
Federal airtankers, CAL FIRE cannot continue to support extended attack 
fires on Federal lands without adversely affecting our aviation 
program.
    States stand ready to assist you in developing and implementing a 
plan for the appropriate number, type and location of Federal 
airtankers. I look forward to discussing this issue with you and Tom 
Harbour in the near future.
            Sincerely,
                                               Ken Pimlott,
                                                          Director.

    cc: (USFS) James Hubbard, Deputy Chief for State & Private Forestry
        (USFS) Tom Harbour, Director of Fire and Aviation Management
        (USFS) Randy Moore, Regional Forester Pacific Southwest Region
        (CAL FIRE) Andy McMurry, Deputy Director, Chief of Fire 
Protection
        (CAL FIRE) Caroline Godkin, Deputy Director of Legislation

                         FIREFIGHTING CAPACITY

    Mr. Tidwell. I do, Senator.
    Senator Feinstein. You do.
    I've underlined certain parts of it, and I'd like you to 
follow along. Well, CAL FIRE's fleet of 23 Type 3 airtankers 
mixed with the assigned Federal type 1 airtankers provide a 
mixture of aircraft to meet our joint, initial attack goals, as 
well as the needs of extended attack on major fires.
    And then he points out what the reductions are. And he 
says, initial and extended attack fires on Federal lands are 
increasing the flight hours on CAL FIRE's airtankers and 
reducing their availability for response to new fires. And then 
he talks about your strategy.
    I have concern that the strategy falls short in several 
areas. And the one I would talk of the identified optimum 
number of 18 to 28 aircraft is insufficient to meet the needs 
of the combined Federal, State, and local wildland firefighting 
missions. The current drought cycle will continue through the 
next decade.
    I'm concerned that during periods of multiple large fires 
in other regions, California will be left with an insufficient 
number of Federal aircraft to meet the normal initial and 
extended attack workload.
    Now, here's the deal breaker. Unless there are a sufficient 
number of Federal airtankers, CAL FIRE cannot continue to 
support extended attack fires on Federal lands without 
adversely affecting our aviation program.
    So what this is saying is if you're going to provide, you 
know, reduced ability, CAL FIRE is considering stopping 
fighting fires on Federal land, and we have huge amounts of 
Federal land in California.
    Where do the new helos come from? You're cancelling four 
helos, three of them in California, is that right?

                        FIREFIGHTING HELICOPTERS

    Mr. Tidwell. Those were the smaller Type 2 helicopters.
    Senator Feinstein. But you're cancelling four, right?
    Mr. Tidwell. We replaced those. We actually have eight less 
of the Type 2 helicopters, and we are bringing on four Type 1s 
which actually will carry more, have more capacity, and are 
able to deliver more water per hour than those eight.
    Senator Feinstein. How many will be available during fire 
season in California?
    Mr. Tidwell. Depending on what's going on in California, 
Type 1 helicopters could be in California.
    We move these resources to where the fire season is 
starting to increase, and we pre-position these large 
helicopters to be available.
    They are not the helicopters that we rely on for initial 
attack. These are large helicopters that are dedicated to fire 
suppression, the large fires. And so we will move those and 
pre-position them wherever in the country we need them.
    Senator Feinstein. You're staying that 30 of these 
helicopters will be available in California during fire season?

                         HELICOPTER POSITIONING

    Mr. Tidwell. They could be, depending on what's going on in 
California, and the rest of the country.
    Senator Feinstein. Could be.
    Mr. Tidwell. We also have our initial attack helicopters 
that will be located throughout the State. This is one of the 
things that we are also looking at, especially as the fire 
season develops. If we need to bring on additional helicopters 
over the next 30 to 45 days.
    It is one of the things we are considering, to actually 
bring on some additional helicopters depending on how this fire 
season develops over the next 30 to 45 days.
    Senator Feinstein. Well, I'm concerned because I know CAL 
FIRE, and they don't say things that they don't mean. And I'm 
worried that we're on our way to a confrontation which is not 
going to be helpful.
    And, you know, we've got big national forests up in the 
Tahoe Basin, up in the northern part of the State. You've got 
the Los Angeles National Forest where if they have a fire 
there, it impacts subdivisions and a lot of forestry land as 
well, different forest land.
    That you will not have adequate equipment available in the 
State. You are saying to me that you will, is that right?
    Mr. Tidwell. We will be able to move these resources to 
California depending on the fire season. If we determine in the 
next 30 to 45 days that there's a need to bring on additional 
helicopters, we will do that.
    We also have the hundreds of call-when-needed helicopters 
that we can also bring on.
    Senator Feinstein. Are they adequate? Is the supply going 
to be adequate? Look, hazardous fuels mitigation money is down. 
We have had a wet winter. You're going to have huge food for 
fire.
    And if what happens with weather is more heat which is 
suspected, we've got two nuclear power plants down in Southern 
California, the possibility of rolling blackouts in the summer.
    What I'm trying to find out is, will you make a commitment 
that there are adequate Federal firefighting resources for 
Federal land in California this next firefighting season?
    Mr. Tidwell. I will make a commitment that we will provide 
the resources that we have available to address the situation.
    I would like to remind the subcommittee that there are 
times when we have the large airtankers, the large helicopters, 
the Type 1 crews that are within minutes of a fire.
    If it gets started under certain conditions, we are not 
able to catch that fire during initial attack.
    Senator Feinstein. Well, my understanding is that the helos 
are not available to hit fires when they're small, only after 
they burn out of control; is that correct?

                     FIREFIGHTING WITH HELICOPTERS

    Mr. Tidwell. No. Our helitack crews, their primarily 
responsibility is initial attack. We have more than 90 
helicopters that are just available for initial attack.
    As the fire season develops, we can bring on dozens to 100 
more on-call helicopters when needed to do initial attack, to 
drop water and also move crews.
    Senator Feinstein. I don't want to go through another 
Station Fire.
    Mr. Tidwell. Yes.
    Senator Feinstein. And you're telling me now that the 
helicopters will be available on the initiation of what could 
be a big fire. You're not going to wait until it's out of 
control.
    Mr. Tidwell. No. Usually, depending if the fire starts near 
one of our helitack bases, that helicopter is the first 
resource on the fire.
    If it is farther away, then it is the airtanker that is 
going to be the first resource on the fire, and then the 
helicopters are usually the second resource on that fire.
    Senator Feinstein. Is it your intention in a wildfire, 
wildland fire on Federal land, to let the land burn or to 
attack it at its beginning? What is the policy now?

                          WILDLAND FIRE POLICY

    Mr. Tidwell. The policy is that when we need to take 
initial attack, we are going to take initial attack. Our record 
of being successful on close to 98 percent of the fires that we 
take initial attack on has held up over the years. I expect we 
are going to be able to continue that.
    There are fires in the back country, where the planning has 
been completed. If we have the right set of conditions, we will 
manage that fire in the back country for resource benefits.
    But when I say it is managed, it is still suppression 
actions that are taken to make sure that it is contained within 
an area that has been basically already addressed through a 
planning process.
    Senator Feinstein. Well, I'm going to follow this fire 
season very carefully and come back and look at this 
transcript. Because I am really concerned. And I hope you will 
give California some attention.
    Things are happening weather-wise out there which are very 
serious, and it's getting warmer, and drier. And as I say, I 
think the decision was made in the Station Fire, not to attack 
early. And I think that was a mistake.
    Initially, we had more than 1,000 lightning strikes on a 
given day up north, not last year, but a couple of years ago, 
which started hundreds of wildfires. And I went with President 
Bush and flew over and the damage that was done was just 
enormous. It looked like another planet.

                              STATION FIRE

    Mr. Tidwell. Yes, Senator, I worked in that region, and I 
was up there on those fires when we had that. I think it was 
one storm, we had more than 3,000 fires get started there in 
the northern part of California.
    We will continue to work very closely with CAL FIRE along 
with all the other States. The only way we can deal with 
wildland fire in this country is for all the cooperators to 
work together. We will take initial attack, like we did on the 
Station Fire. We had crews and resources that were on that fire 
right from the start. Early the next morning, we had a large 
helicopter dropping close to 2,000 gallons of water every few 
minutes on that fire.
    But you get the right set of conditions, and you get the 
wind behind it, and there are a few of these that we are just 
not able to catch during initial attack.
    Senator Feinstein. I know that that's true. Have you 
responded to CAL FIRE's letter of March 7?
    Mr. Tidwell. We have been working with them, having 
discussions with them, and I will be sending a written 
response.
    Senator Feinstein. Would you please ``cc'' me on the 
response, I'd appreciate it.
    Mr. Tidwell. Certainly, Senator.
    Senator Feinstein. I'd appreciate it. Thank you. I'm sorry 
I took so much time.
    Senator Reed. Quite all right, Senator.
    Senator Feinstein. Thank you.
    Senator Reed. Very important and timely questions. In fact, 
let me just follow up.
    As Senator Feinstein pointed out, not only do we look at a 
very complicated and challenging fire season ahead, we lost a 
lot of acreage last year which raises a question about 
rehabilitation.
    And I note, and you may correct me if I'm inaccurate, that 
there's no line item for rehabilitation in the fiscal year 2012 
budget, so how are you rehabilitating some of the lands? Where 
are you getting the money?

                          LAND REHABILITATION

    Mr. Tidwell. Mr. Chairman, you are correct. We no longer 
have the budget line item that we have had in the past to deal 
with restoration following a fire.
    So the initial work that is done is through our burn area 
emergency rehab work, where we do have current year funds that 
we can use, but a lot of the work has to be done following 
that.
    We will have to rely on using the funds--the fund codes 
that make up the IRR proposed line item.
    We use force management of watershed funds, fish and 
wildlife funds at times, to be able to do that work. We are 
going to have less resources to be able to respond in the 
future.
    Senator Reed. Let me follow up with a related question. One 
of the ways that you try to minimize the risk is hazardous 
fuels reduction. And I looked at the fiscal year 2012 budget, 
and in the 2013 budget proposal, you are taking $75 million 
from hazardous fuels, and you're putting it in the IRR line 
which we both talked about as perhaps the cart before the horse 
in terms of the pilot program.
    That raises the question of how are you using these limited 
dollars for fuel reduction mitigation efforts that will help?

                            HAZARDOUS FUELS

    Mr. Tidwell. The $75 million that we proposed to put into 
the IRR is basically that part of our hazardous fuel money that 
we have been spending in more of the back country to do the 
work.
    Over the years, we have spent the majority of our funds in 
the WUI. We have 25 million acres of WUI on the National Forest 
and grasslands.
    We have a system that we have been using for the past 
years, a model that we follow, to determine the highest-
priority areas for distributing fuels funding across the 
country.
    We follow that model to set the priorities and the 
allocations out to the regions, and the regions then use a 
similar model to actually determine which forest receives the 
hazardous fuels funding so that we are putting the funding 
where we have the highest priority.
    Often when there are resources like communities that are at 
risk from a large wildfire those projects are going to rate out 
very high. That is why you are going to see us continue to 
spend the majority of our appropriations dealing with WUI 
hazardous fuels projects.
    They are also the most expensive work. The work we do in 
the back country, we can treat a lot more acres for a lot less 
money. So over the last few years, as far as acre 
accomplishment, we have been getting about 50 percent of our 
accomplishment in the WUI, and then 50 percent in the back 
country, even though we have been spending the majority of our 
appropriated funds in the WUI.
    It is just much more expensive to work in communities' 
backyards.
    Senator Reed. Yes. You presumably have evaluated the cost 
benefit, you know, the relative efficiency of this program. Can 
you share that with us? Whatever analysis you have.
    Mr. Tidwell. We can do that. I can tell you that we 
continue to learn. We had last year with the Wallow Fire, the 
largest wildfire of record in Arizona.
    We were fortunate that a few years ago, we started the 
White Mountain Stewardship Project down there that had treated 
thousands of acres before that fire got started.
    Because of that work, when that large wildfire hit those 
treated areas, areas that had been thinned out, that fire 
dropped out of the top of the trees onto the ground, and our 
suppression crews, our firefighters were successful.
    It saved thousands of homes. It is tragic that we lost 
dozens, but because of that work, I would be glad to show you 
some photos that demonstrate the difference it can make.
    We have also learned with the fire seasons we are dealing 
with now, that we need larger treatments. Some of the work that 
we did in the past was not large enough. We have to be able to 
understand that these wildfires, the conditions that we have 
today, that it is going to take much larger areas that have 
been treated to really make a difference.
    Those are some of the things that we are looking at more 
now as we move forward. Taking more of a landscape approach so 
that we are not treating 50 acres or 100 acres. We need to be 
treating the thousands, the tens of thousands of acres.

       COLLABORATIVE FOREST LANDSCAPE FOREST RESTORATION PROJECTS

    That is our current approach with these Collaborative 
Landscape Forest Restoration projects across the country. I 
used the one project down there in Arizona that we are moving 
forward with as an example.
    We are also doing another one, an environmental impact 
study on 750,000 acres, to be able to address, do the analysis 
for 750,000 acres under one environmental document. Then we 
will be able to move forward and do the restoration work across 
this four-forest area over the next decade or so.
    That is what we need to do. That is what we have been 
learning, and I will be glad to provide you with the 
information that we have on some of the studies we have been 
doing on the effectiveness.
    Senator Reed. Let me turn now to the urban and community 
forest program. You are looking at a $3.2 million reduction, 
and yet you are indicating that you'll maintain the same level 
of activity.
    That would be very good. How do you do that?

                      LANDSCAPE SCALE RESTORATION

    Mr. Tidwell. Well, actually, our request is very similar to 
what we received in fiscal year 2012. But there is a portion of 
those funds that have moved into our Landscape Scale 
Restoration proposed budget line item.
    This Landscape Scale Restoration proposed budget line item 
reflects what we have been doing over the last few years. 
Taking a portion of our State and private funds and setting it 
aside, so that the States actually compete for those funds.
    They get their initial funding, and then there is this 
other pot of money that we have had them compete for over the 
last few years. What we have noticed through this is that they 
have learned to look at how they can put together better 
proposals, even working across State lines, so that we have 
been able to increase our efficiency.

                      URBAN AND COMMUNITY FORESTRY

    When it comes to Urban and Community Forestry, we are 
requesting a similar amount of money. There is just a portion 
of it that will be in this other proposed line item that the 
States will have to compete for just like they have had to over 
the last few years.
    Senator Reed. There's another aspect here, and that is with 
respect to States, particular States that don't have large 
national forests but have private and State owned forests.
    That's the proposal to consolidate the State Wildland Fire 
Assistance and the Forest Health Management Program, which 
could leave some States, one of which being mine, unsure of 
where they stand or not receiving adequate resources for 
current programs.
    Can you comment upon that?

                         PROGRAM CONSOLIDATION

    Mr. Tidwell. There is a very slight decrease in what is 
available for the State Fire Assistance funds.
    Once again, we have proposed to put both of the funds into 
one budget line item just to make it a little easier for us to 
track just one budget line item.
    It is going to be a little easier for the States, instead 
of having two. Basically, they have done the same type of work, 
and we feel that it's more efficient to have one budget line 
item.
    Overall, it is a slight decrease from what we requested, 
what we received in fiscal year 2012. Those funds are still 
going to be available for Rhode Island and for all the States.
    As it has been pointed out so clearly here a couple of 
times, our fire seasons are becoming not only longer, but more 
severe, and are becoming a bigger problem for us to deal with. 
It is essential that we can continue to be able to provide the 
support to our States and to local fire departments.
    Without them, we would not have near the success ratio that 
we currently do, because we rely on both the State and the 
local fire department to be the first resources that come onto 
fires that are on the national forests.
    Senator Reed. Thank you, Chief. Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    Chief, let me ask you about the 9th Circuit, Court of 
Appeals decision that decided that forest roads are point 
sources that require industrial discharge permits.
    Last year in the appropriations bill, language was included 
that temporarily prevented this ruling from taking place. So 
the question to you this morning is whether or not insertion of 
that language actually allowed USFS to get more work done on 
the ground?
    Was that helpful, not helpful? Can you just kind of speak 
to how that played out?

                              FOREST ROADS

    Mr. Tidwell. Senator, it allowed us to continue to do what 
we have been doing to address the need for clean water, and 
that is to follow the use of our best management practices that 
we have been relying on to address any potential concerns of 
erosion coming off of logging roads.
    It's something we're working closely with Environmental 
Protection Agency (EPA) as we move forward. They had a court 
order they had to address. But to be able to work with them to 
find a way we can continue to use our best management practices 
to be able to apply that.
    Because it has proven to be very effective not only on the 
national forests but also on the private forested lands, that 
most I think every State requires the use of best management 
practices.
    And they have been effective to address, the potential 
concerns and be able to not only meet the intent of the Clean 
Water Act, but also to address any concerns with the impacts to 
water.
    Senator Murkowski. So if in fact this is actually helped 
you, is there a reason that you didn't request extension of 
this authority in the budget this year?
    You mentioned you are working with EPA. We understand that 
we need to do that. But if it's proven effective, why wouldn't 
we want to continue this?
    Mr. Tidwell. I'm optimistic that through the work of EPA, 
we will be able to find an administrative path forward to be 
able to address this. I am optimistic we will be able to get 
that done.
    Senator Murkowski. Can you give me any indication at this 
point in time that you think you have that administrative 
authority?
    Mr. Tidwell. We do not have it at this point in time, but 
we are continuing to work closely with the EPA.
     I would be glad to, as those discussions move forward, and 
a decision is made by the EPA on what steps they are going to 
take, provide that information to you.
    Senator Murkowski. Okay. I would appreciate that because if 
it appears that that isn't possible, if you've indicated that 
you think you've actually made some improvements, you've been 
able to get some additional work done on the ground, then maybe 
we need to look again to inserting that language.
    Let me ask you about Secure Rural Schools program. You 
mentioned very briefly in your statement a reference to Secure 
Rural Schools program. Clearly very important to States like 
mine and to many on this panel.
    Can you tell me what the allocation split is? I'm looking 
at the budget justification here. And it just indicates that, 
let's see, the fiscal year 2012 proposal assumes the enactment 
of Secure Rural Schools program for 5 years, funds payments for 
mandatory funding.
    And the proposal revises the allocation split between the 
schools and roads, economic investment, forest restoration, and 
fire assistance portions of the program.
    Can you tell me where you are going to the Secure Rural 
Schools program?

                      SECURE RURAL SCHOOLS PROGRAM

    Mr. Tidwell. In the President's request, we identified 
mandatory funding that could be used for this program.
    Senator Murkowski. So where did you identify that from?
    Mr. Tidwell. It is part of the President's budget request.
    Senator Murkowski. Okay.
    Mr. Tidwell. It is the overall request, and at the same 
time, we need to work with you to put together the legislative 
framework on how to move forward with this program.
    We put it in there as mandatory funding this year, it shows 
the importance, the understanding of the importance of this 
program, especially in these current economic times, about how 
we need to be able to find a way to work together to be able to 
move forward, to be able to continue to provide this funding to 
the counties and the boroughs.
    Senator Murkowski. Okay. Well, I want to understand a 
little bit further the administration's proposal.
    Again, this is something that many of us are very focused 
on, and want to make sure that we've got the funding piece of 
it figured out, but also the formula going forward over the 5 
year proposal.
    Let me ask you about the new forest planning rule. On the 
23d of March, you finalized the new planning rule. This is the 
latest attempt to revise the 1982 planning rule.
    Of course, we've seen a series of litigation over the 
years. The 1982 rule remains in effect. I guess a question to 
you is whether or not you also similarly expect that this new 
rule will be challenged and whether you think that this one is 
one that could actually be held up in a court challenge?

                             PLANNING RULE

    Mr. Tidwell. Senator, I do not know if it is going to be 
challenged or not. As you mentioned, we have had to deal with 
this for the last two decades, and the last three attempts were 
challenged.
    We definitely have learned from those previous attempts. 
From my perspective, we have done the best job of having a very 
transparent process involving and engaging more members of the 
public across this country than we ever did before.
    To be able to factor in what we heard from all those 
different meetings, and all the comments that we received, I 
believe we have the best proposal we have ever put together. It 
is very balanced. It will save money. It is going to save time.
    It will do a better job than what we did under the 1982 
rule. I also believe we did an excellent job dealing with the 
analysis that is required, and that we are optimistic about 
moving forward and demonstrating how we will apply this.
    The other thing we are relying on is that we are putting 
together a Federal advisory committee to provide 
recommendations to the Secretary and myself about the 
directives and about how to move forward with this and also 
with the collaborative process that is required.
    I think by having that committee in place, which will be a 
very diverse, group of individuals, that will need to spend the 
time to really look at this. We will be able to bring in not 
only employees from the forest that are moving forward with the 
plans, but also members of the community to be able to say, 
that this is how we're moving forward with it.
    Here is how it is working. They can hear directly from 
them. I am optimistic that this time around, we will be able to 
demonstrate that this is a better process than in 1982. That if 
and when there is a court challenge, we will have that 
additional evidence to be able to demonstrate that this is a 
better way, while at the same time, addressing the same 
concerns that have been brought up in the previous litigation 
on our past attempts.
    Senator Murkowski. Well, I think we all know there's been a 
somewhat tortured history out there going through the courts.
    Mr. Tidwell. Yes.
    Senator Murkowski. I was a little surprised that the 
Chugach National Forest was selected as one of the first eight 
forests to revise its plan under the new rule because as it 
stands right now, the Chugach Plan doesn't require revision for 
yet another 5 years.
    So the question is, why was the Chugach National Forest 
selected when you've got other forests out there that are well 
past their life of their 15-year plan? Why did you single out 
the Chugach National Forest?
    Mr. Tidwell. First of all, it is within every 10 to 15 
years, and so they will be closed here in a couple of years, 
but they asked. The forest felt they were well positioned to be 
able to move forward.
    They wanted to use this new rule to make some changes in 
their current forest plan based on what they are hearing from 
their communities and from the public.
    So they requested that they could be one of the first 
forests to move forward with implementation. That was one of 
the things that we factored in as to which ones need, have a 
pressing need, and the ones that were positioned and had the 
ability to move forward.
    Then, if there was a strong desire. The Chugach National 
Forest met all of those.
    Senator Murkowski. Do you worry that not only the Chugach 
National Forest, but the others, the other eight, might start 
revising their plan under this new rule, and then as we saw 
before, the rule gets thrown out in court.
    And you're in a situation where you've effectively wasted a 
lot of time, clearly, a lot of money, because you have to start 
all over again.
    Do you worry about that course ahead?
    Mr. Tidwell. We do factor that in, and that is where the 
forests that are currently going, they have been going through 
planning for the last couple of years. They will probably all, 
or most of those, will continue under the 1982 rule.
    This new rule is so much more efficient, and it eliminates 
a lot of unnecessary modeling and analysis. So that, under any 
scenario, we probably are not going to lose any ground. I 
remain optimistic that because of the work that we did this 
time around, the additional work, working with our communities, 
that I feel that we have finally done this.
    That this will be a rule that will withstand any 
challenges, and that we will be able to move forward and revise 
our forest plans for decades to come. I know, you know, there 
is a chance it could be challenged.
    I feel really strongly about this, and I tell you I would 
not have this level of confidence if it was not based on just 
the work that has gone into this. The amount of support across 
the board, and not everyone is supportive. I understand that.
    We definitely have more support for this rule than we have 
ever had for the previous three attempts.
    Senator Murkowski. Well, I guess it remains to be seen. Mr. 
Chairman, I have one more question, but my time is up.
    Senator Reed. Take your time. Go ahead.

                        STEWARDSHIP CONTRACTING

    Senator Murkowski. Okay. Then this is as it relates to the 
stewardship contracting and the Tongass. I'm sure you probably 
anticipated this question.
    You indicated in your comments that you're seeking a 
permanent extension of the stewardship contracting authority, 
and have indicated that this is a real priority for USFS and 
its restoration efforts.
    Unfortunately, this hasn't been met positively in the 
Tongass as it relates to the stewardship contracting. Back in 
2008, USFS promised to offer four 10-year commercial timber 
sales at approximately 150 to 200 million board feet.
    Those have been modified into two stewardship contracts at 
a greatly reduced volume. We've yet to see these contracts 
completed and offered to the industry.
    So I'm concerned that with the focus on the stewardship 
contracting, what is happening is it's coming at the expense of 
a commercial sales program, and our very small male 
infrastructure is being squeezed here.
    So I would ask you to address that criticism that USFS 
focus is on, in an area that directs resources away from the 
commercial sales, whether or not, I guess, the volume of 
commercial sales that you would anticipate be part of these 
contracts, and how you see it really operating in the Tongass?
    Mr. Tidwell. Stewardship Contracting is just another tool 
to augment the work that needs to be done. It is not to replace 
the timber sale contracts.
    I share your concern about the lack of progress we have 
made with the Stewardship Contracts that USFS has been working 
on. It is one of the things that I would really like to work 
with you to maybe look at some of the different options that we 
may have up there on the Tongass to be able to move forward 
with that.
    I want to be very clear. It is just part of our program. We 
are currently doing about 20 percent of the restoration work, 
the timber harvest under Stewardship Contracts across the 
country.
    Ideally, would I like to see a little more of that? Yes. 
But we are still going to be using the timber sale contract. It 
is the right tool for certain projects.
    However, we are finding the Stewardship Contract to be a 
very effective tool. I think it does have some use up on the 
Tongass. Maybe not as much up there as in other parts of the 
country, but we did have one very successful project last year. 
It was small.
    But I think those are things that build confidence not only 
in the industry, but in the communities, that this is a good 
tool.
    I am hoping because of the success they had last year on 
that small project that we will be able to move forward with 
the Stewardship Contracts, and to make these multiple-year 
contracts, so that it allows someone to be able to come in and 
make that financial investment in either maintaining the mill 
or investing in upgrading the mill.
    If they know that there is a long-term contract here and 
that there is going to be a certain amount of material that is 
going to be available, it is going to be harvested, they can 
make sound financial decisions.
    That is what we need to be able to do. Senator, I really 
look forward to being able to work with you to look at maybe a 
couple of different options I have been thinking about that 
maybe could help us on the Tongass.
    Senator Murkowski. Well, I'd like to take you up on that 
offer. Again, my concern is that you have a diversion of 
resources that goes toward the stewardship contracts at the 
expense of the other projects and how we affect these 
commercial sales.
    So if we can sit down and discuss how some of these options 
might move forward on the Tongass, I think the people in the 
region would greatly appreciate it. I would appreciate it.
    It's something that, again, in our conversations both in 
hearing and in my office, I've expressed the concern of those 
that are really just hanging on by their fingernails out there.
    And the assurance of a longer-term contract and some 
reasonable volume is all they're looking for. They're not 
looking to take it back to the days of the timber industry 30 
years ago. They're more pragmatic about that.
    But we need to have some assurance. So if your folks can 
sit down with us and work through some realistic options, I 
think that that would be appreciated.
    Mr. Tidwell. Well, thank you.
    I look forward to having that opportunity because I do 
think we have some additional flexibilities, some things we are 
doing here in the lower 48 that we should be able to have those 
same flexibilities on the Tongass too. Especially in these very 
difficult economic times that we are facing.
    Senator Murkowski. Exactly.
    I would rather the people of Ketchikan and Prince of Wales 
be able to harvest timber, be able to have jobs in the small 
saw mills than figure out ways that we're piecing together 
Secure Rural Schools program funding.
    Trying to rob Peter to pay Paul type of an approach. But 
knowing that that's all we have to offer right now, I think 
they would rather have the jobs. They would rather have that 
small industrial base.
    Mr. Tidwell. Yes.
    Senator Murkowski. So I look forward to working with you, 
and thank you, Mr. Chairman, for the additional time.
    Senator Reed. Thank you, Senator Murkowski. And thank you, 
Chief, for your testimony. Did you have a comment? Please, go 
ahead.

                               H.R. 1581

    Mr. Tidwell. Yes. Mr. Chairman, I just need to, for the 
record, correct an earlier statement from Senator Tester about 
H.R. 1581.
    I did not recognize the H.R. number versus the Senate 
number.
    Senator Reed. You didn't? I'm shocked.
    Mr. Tidwell. I apologize to the subcommittee, but we did 
testify on that bill in the past, and our position is that we 
strongly opposed that bill. I just wanted to correct the 
record. Thank you.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Reed. The correction is duly noted. We will keep 
the record open for 1 week. You may receive additional 
questions from my colleagues. Any further statements by my 
colleagues will be submitted for the record.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

                 Questions Submitted Senator Jack Reed

                       STATE AND PRIVATE FORESTRY

    Question. The fiscal year 2013 budget proposes a $3.2 million 
reduction for the Urban and Community Forest program while the budget 
justification states that the fiscal year 2012 level of activity will 
be maintained in fiscal year 2013. How will a $3.2 million reduction 
result in the same level of activity?
    Answer. In fiscal year 2012, as in the previous 4 years, 15 percent 
of funds from selected State and Private Forestry (S&PF) programs, 
including Urban and Community Forestry (UCF) were used to fund 
competitive, landscape-scale ``Redesign'' projects. The fiscal year 
2013 budget proposes a Landscape Scale Restoration Program as a new 
Budget Line Item (BLI) that would formalize the Redesign competitive 
process. The $3.3 million reduction is similar to the amount that would 
have been used to traditionally fund ``Redesign'' projects, which will 
now be funded by the Landscape Scale Restoration BLI. As such, the 
amount proposed in the UCF program is similar to previous years and is 
expected to have similar accomplishments.
    Question. Can you specifically detail the initiatives planned for 
urban forests in fiscal year 2013?
    Answer. UCF will work with the State forestry agencies and other 
partners to provide assistance to develop and maintain urban and 
community forestry programs. These programs protect and maintain urban 
trees and forests in more than 7,000 communities, representing more 
than 194 million people. In fiscal year 2013, UCF will continue to 
support the national strategic tree planting initiative launched in 
fiscal year 2012 to reduce energy consumption and provide communities 
with all of the benefits that urban trees provide including:
  --improved air and water quality;
  --improved human health and well-being;
  --green jobs;
  --recreation; and
  --wildlife habitat.
    In fiscal year 2013, UCF will also work with partners to advance 
the recommendations contained in the Vibrant Cities and Urban Forests 
Task Force Report, issued in the fall of 2011 and available online at 
http://issuu.com/vibrantcities/docs/vibrantcitiesreport.
    Question. What are the goals of the proposed Landscape Scale 
Restoration program and how will States with predominately State and 
private forest lands, such as Rhode Island, likely to compete?
    Answer. The goal of the proposed Landscape Scale Restoration 
Program is to focus and prioritize S&PF resources to better shape and 
influence forest land use at a scale and in a way that optimizes public 
benefits from trees and forests across all landscapes, from rural lands 
to urban centers. This increased focus on ``All Lands'' projects brings 
particular attention to implementation of the priorities identified in 
Rhode Island's State Forest Action Plan, formally called the State-wide 
assessment. Over the past 5 years, Rhode Island has been successful in 
receiving project funding through the competitive process and will 
continue to compete for project funding which includes projects with 
universities and nonprofit organization partners, and through project 
partnerships with adjoining States.
    Question. Will the Forest Resource and Inventory Analysis program 
continue to have the same authority to partner with the States under 
research as it has had in S&PF?
    Answer. Yes, this program, proposed for consideration under the 
Forest and Rangeland Research budget line item as Forest Inventory and 
Analysis (FIA), will continue as a priority research area. FIA will 
continue to have the same ability to partner with States under research 
as it had under S&PF.
    Question. How will you maintain these State partnerships without a 
distinct funding line?
    Answer. In the fiscal year 2013 President's budget, FIA will have 
distinct funding within the Forest and Rangeland Research budget line 
item. This is identified as a priority research area in the budget 
justification with $66,805,000 proposed for funding in fiscal year 
2013. We will continue to work within our authority to diligently 
maintain these State partnerships. We will also continue measurement of 
field plots for data collection and provide State reports, but at a 
slower pace.

                         STATE FIRE ASSISTANCE

    Question. Detail any changes in implementation of the following 
programs, which are proposed to be consolidated,
    Answer. The proposed consolidation of the National Fire Plan-State 
Fire Assistance with Cooperative Fire Protection-State Fire Assistance 
in the fiscal year 2013 President's budget is expected to have minimal 
effects on how the program is implemented. States will continue to 
receive funding, as they have in previous years, for programs and 
projects such as hazardous fuels reduction, developing community 
wildfire protection plans, capacity building, training, increasing 
initial attack capabilities, improving firefighter safety and creating 
fire adapted communities. The combination of funding from two budget 
lines into a single budget line will simplify program management and 
performance measurement in addition to reducing administrative 
complexity.

                       VOLUNTEER FIRE ASSISTANCE

    The proposed consolidation of the National Fire Plan-Volunteer Fire 
Assistance with Cooperative Fire Protection-Volunteer Fire Assistance 
in the fiscal year 2013 President's budget will have minimal effects on 
how the program is implemented. States will continue to receive funding 
targeted for rural fire departments that can be used for improving 
initial attack capability, providing training and improving 
firefighting safety. Funds will match financial assistance in 4,500 
rural communities (population less than 10,000 people) to build and 
maintain fire suppression capacity.

                   FOREST HEALTH MANAGEMENT--FEDERAL

    The proposed consolidation of the Wildland Fire Management Forest 
Health Management with S&PF Forest Health Management in the fiscal year 
2013 President's budget will have minimal effects on programs or 
funding compared to fiscal year 2012. Major programs in fiscal year 
2013 such as gypsy moth suppression, eradication and Slow-the-Spread 
program; and priority treatments to control invasive pests such as 
southern pine beetle and western bark beetle are planned at similar 
levels as fiscal year 2012. The combination of funding from four budget 
lines to two lines simplifies program management and performance in 
addition to reducing administrative complexity.
    Forest Health Management-Federal Lands will continue to conduct 
forest insect and disease surveys on more than 400 million acres of 
forestlands; conduct forest insect and disease prevention, suppression, 
restoration, and eradication projects; provide technical assistance; 
and monitor forest health on all Federal lands including those of the 
Departments of Defense and the Interior, and the Army Corps of 
Engineers.

                    FOREST HEALTH MANAGEMENT--CO-OP

    The combination of funding from four budget lines to two lines are 
similar as stated for Forest Health Management-Federal Lands. Forest 
Health Management-Cooperative Land funds will continue to provide 
technical and financial assistance to States and territories to conduct 
monitoring and treatments such as the Slow-the-Spread program for gypsy 
moth and for work on sudden oak death, southern pine beetle, and 
hemlock woolly adelgid.

               FOREST RESOURCES INFORMATION AND ANALYSIS

    Historically, the FIA program has been funded from both Forest and 
Rangeland Research and the State and Private Forestry Forest Resources 
Information and Analysis program. In fiscal year 2013, FIA is proposed 
for consolidation under the Forest and Rangeland Research 
appropriation.
    FIA will continue with reduced annual forest inventory data 
collection in all 50 States. This will result in extending the 
inventory cycles and State forest resource reports by 1 year for each 
of the 50 States.
    Question. What will the effect be of the consolidations for States 
like Rhode Island that are not at risk of catastrophic wildfire, but 
still receive base funding in State and volunteer fire assistance?
    Answer. The proposal to consolidate the State Fire Assistance (SFA) 
and Volunteer Fire Assistance (VFA) budget line items in the fiscal 
year 2013 President's budget is not expected to reduce base funding for 
States such as Rhode Island. The allocation methodology for SFA and VFA 
funding is reviewed approximately every 5 years. At this time, the 
different allocation methodologies being considered include base 
allocations for both State fire assistance and VFA.

                        WILDLAND FIRE MANAGEMENT

    Question. Provide a table of the available aerial firefighting 
resources on the following dates, detailing at least the aircraft model 
(tanker and helicopter), exclusive use (EXU) vs. call-when-needed 
(CWN), type (VLAT, SEAT, Type I, Type II, etc.), and owner (Minden, 
Neptune, CalFire, etc.):
  --August 1, 2011;
  --May 1, 2012;
  --August 1, 2012 (projected); and
  --May 1, 2013 (projected).
    Answer. The United States Forest Service (USFS) does not maintain 
records on CalFire or other States' aircraft numbers or availability. 
Other States including Minnesota, Washington, Oregon, and Alaska 
contract for or operate airtanker and/or helicopter resources, which 
provide an interagency aerial firefighting response in those States. 
The table below shows available contracted aviation assets and 
Department of Defense supplied Mobile Aerial Firefighting System 
(MAFFS) capabilities for USFS.

--------------------------------------------------------------------------------------------------------------------------------------------------------
               Aircraft                          Owner                Contract Type       August 1, 2011    May 1, 2012   August 1, 2012    May 1, 2013
--------------------------------------------------------------------------------------------------------------------------------------------------------
Large airtankers.....................  Minden--2; Neptune--9...  EXU....................              11              11              11         Up to 8
Next-generation large airtankers.....  To be determined on       EXU--Not awarded as of   ..............  ..............         Up to 3        Up to 13
                                        contract award.           May 5,  2012.
Type 1 helicopters...................  Multiple................  EXU....................              26              30              30              30
Type 2 helicopters...................  Multiple................  EXU....................              41              33              33              33
Type 3 helicopters...................  Multiple................  EXU....................              61              61              61              61
Helicopters--All types...............  Multiple................  CWN....................       Up to 378       Up to 378       Up to 378       Up to 378
Water scoopers.......................  Aero Flite..............  EXU--Department of the                2               2               2               2
                                                                  Interior contract.
Water scoopers.......................  To be determined on       CWN--Department of the   ..............  ..............         Up to 4         Up to 4
                                        contract award.           Interior contract.
Very large airtanker.................  10 tankers..............  CWN....................               1               1               1               1
Single engine airtankers.............  Unknown.................  EXU--Department of the                1               1               1               1
                                                                  Interior contract.
Mobile Aerial Firefighting System: C-  Air National Guard and    None. Activated by                    8               8               8               8
 130H/J.                                Air Force Reserve.        request.
--------------------------------------------------------------------------------------------------------------------------------------------------------

    Question. Provide a detailed explanation for how the $24 million 
for the next-generation airtankers in the fiscal year 2013 budget will 
be spent.
    Answer. The $24 million will pay for contract costs associated with 
additional next-generation large airtankers in accordance with our 
large airtanker modernization strategy. The $24 million augments 
existing funding to help account for inflation and anticipated 
increased cost of next-generation large airtankers.
    Question. How many new aircraft do you expect to bring online in 
fiscal year 2013?
    Answer. USFS will shortly award contracts for up to three next-
generation large airtankers, to be operational in 2012, in addition to 
the 11 legacy P-2V airtankers. This contract may provide up to 10 
additional next-generation airtankers in fiscal year 2013. The 
potential exists to have up to 20 large airtankers in 2013. The P-2V 
airtankers will continue to be part of our strategy to maintain large 
airtanker numbers until next-generation airtankers are fully 
operational.
    Question. The airtanker Modernization Strategy calls for 18 to 28 
next-generation tankers in total, which will require contracting 
aircraft over the next several years. What is the long-term plan for 
securing the fleet?
    Answer. The long-term strategy is a modern large airtanker fleet as 
outlined in the Large Airtanker Modernization Strategy. It is not the 
intent of USFS, nor does USFS believe that there is an adequate supply 
of next-generation large airtankers, to replace our existing legacy (P-
2V) fleet in 2013.
    The next-generation aircraft are unproven airtankers, some with 
new-design retardant delivery systems or other new features which will 
take time to evaluate and modify to fully meet performance standards 
and airworthiness requirements. Therefore, a legacy airtanker contract 
will be a necessary part of our strategy to maintain large airtanker 
numbers until enough next-generation airtankers are fully operational. 
The current contract for the legacy airtankers ends December 2012. 
Another contract will be advertised in late 2012 or early 2013, which 
would include legacy large airtankers and will be structured to provide 
flexibility to both private industry and the Government. If next-
generation large airtankers are available and approved they will be 
given preference.
    Question. What are the estimates for how much additional funding 
this new fleet of aircraft will cost?
    Answer. Since USFS does not have any long-term contracts for next-
generation airtankers, it is not possible to provide this information.
    Question. If a full complement of next-generation tankers called 
for in the Strategy is reached, how frequently will the National 
Guard's mobile airborne firefighting system units be used?
    Answer. The National Guard and Air Force Reserve C-130s equipped 
with USFS owned MAFFS 2 retardant delivery systems will continue to 
provide surge capability to supplement commercial contract airtanker 
support.
    We cannot predict how often MAFFS will be called upon; their 
activation is dependent on weather, fire activity, and other values 
which cannot easily be forecast. However, since 2003, MAFFS have 
averaged more than 250 missions annually.
    Question. How is USFS ensuring that the limited Hazardous Fuels 
dollars are targeted to the highest-priority areas?
    Answer. USFS continues to improve its processes for allocating fuel 
reduction funds, which prioritizes fuel reduction projects based on 
national priorities. These improvements include the use of a computer 
model to assist in making allocation decisions, rather than relying 
primarily on historical funding patterns and professional judgment. The 
computer model uses data from various sources and considers wildfire 
potential, negative consequences of wildfire, program performance with 
prior year's allocations, and potential opportunities that meet other 
integrated resources objectives.
    The agency annually updates the model inputs to use the best 
available data and science. USFS also directs its regional offices to 
use a similar process and finer scale information, to further inform 
allocations to units and selection of fuel treatment projects based on 
national and regional priorities. USFS provides annual direction to its 
regional offices on how to fund fuel treatment projects that best meet 
national priorities.
    Question. The subcommittee has made an investment of more than $1 
billion in the last 3 years alone for fuels reduction in USFS. How is 
USFS showing the return on investment, such as reduced risk to 
communities or reduced suppression costs?
    Answer. USFS now requires its field units to complete a 
standardized report whenever a wildfire burns into an existing fuel 
treatment, in other words, when a fuel treatment is ``tested'' by 
wildfire. This report includes an assessment of how the fire behavior 
changed, if the fire effects changed as the wildfire burned through the 
fuel treatment, and if the fuel treatment made management and 
suppression of the wildfire easier and safer. These are real world 
examples of fuel treatment effectiveness.
    The initial results indicate that most fuel treatments reduce 
wildfire behavior and reduce fire severity under all but the most 
extreme wildfire conditions. As this data set grows and is combined 
with the latest research, USFS expects to be able to draw conclusions 
about which fuel treatments are most effective under various 
circumstances of ecosystems, fuel types, weather conditions, and other 
variables. The agency also expects to refine its estimates of how fuel 
treatment effectiveness will decline over time and to evaluate the cost 
effectiveness of these treatments. USFS takes fuel treatment 
effectiveness very seriously and continues to improve its measurement 
and understanding by incorporating the latest research.

                            LAND ACQUISITION

    Question. Why were the ``Crown of the Continent'' and ``Florida/
George Longleaf Pine'' ecosystems chosen as the Collaborative Landscape 
Planning Areas for fiscal year 2013?
    Answer. These selected projects contain landscapes that are among 
the most important for conservation, recreation, and restoration in the 
United States. These projects support American Great Outdoors Action 
Item 5.2a: Implement an interagency process to invest part of the 
Federal Land and Water Conservation Fund funds in high-yield 
conservation projects that address shared ecological goals.
    The Crown of the Continent project is one of the last remaining 
intact mountain ecosystems in the coterminous United States and 1 of 
the 23 last remaining large intact ecosystems in the world. The mixed 
wetland and longleaf pine habitats of the Florida panhandle and 
Okeefenokee swamp in southern Georgia protect critical drinking water 
sources for growing human populations in the region, and provide 
important habitat for migratory birds and the remaining bear 
population. Both areas are threatened with development and landscape 
fragmentation that would impair resource management. Both landscapes 
also have robust local support and grassroots organization and 
planning, including local and State government supporters that desire a 
public-private partnership to address conservation needs.
    Question. What is the long-term plan for the Collaborative 
Landscape Planning Areas? Will the same landscapes continue to be the 
budget priority until they are completed, or will different 
geographical areas be the focus in fiscal year 2014?
    Answer. The long-term plan of the interagency work is to maintain 
the focus in a landscape until the stated conservation goals are as 
complete as possible. Not all agencies have the same demand in each 
landscape, but Collaborative Landscape Planning (CLP) will seek to 
complete as much as possible before moving to a new landscape. There 
may be new geographical areas considered for fiscal year 2014. Both 
agencies are waiting on pre-proposals from the field to determine 
whether or not there is capacity or funding to start working in one or 
more new landscapes.
    Question. How do the Collaborative Landscape projects rank vis-a-
vis the 14 ranked acquisitions on the prioritized list?
    Answer. All of the projects, core and collaborative, are important 
agency priorities. The core projects focus on acquiring the highest 
priority lands within the National Forest System boundaries that 
further specific agency goals for forest and grassland restoration, 
watershed management under the Watershed Condition Framework, and 
public and private access. The Collaborative Landscape Planning 
projects are focused on landscapes where the Federal agencies can more 
effectively coordinate land acquisitions with government and local 
community partners to achieve the highest priority shared conservation 
goals. These projects respond to locally supported planning efforts to 
protect critical ecosystems before fragmentation occurs.
    Question. The proposed Priority Recreational Access program 
requires a cost-share and caps projects at $250,000 each. How were 
these requirements determined?
    Answer. A per project cap is proposed to help distribute the 
opportunity to complete a recreational access project among the nine 
USFS regions. Two hundred and fifty thousand dollars ($250,000) is the 
cap because it equates to each region getting at least two projects. 
The cost-share proposal would help the appropriated dollars go further 
and demonstrates a strong show of support from non-Federal partners. 
The cost-share rate was set at 25 percent, a low percentage and a 
resultant relatively small amount of non-Federal money to bring to the 
table (less than $62,000 for the most expensive project).
    Question. Are there $5 million worth of identified Priority 
Recreational access projects (matching the budget justification's 
requirements) that can be accomplished within fiscal year 2013? Provide 
a list of potential projects detailing at least the location by 
national forest, total acreage, types of recreation served, cost, and 
whether the project is a conservation easement or fee title 
acquisitions.
    Answer. There is a substantial need for access to National Forest 
System lands for these purposes as demonstrated in our annual land 
acquisition programs. USFS has not developed a list of projects. This 
is an important initiative for potential projects to be proposed by the 
public and nongovernmental organizations. While we are anxious to issue 
a Request for Proposals so that we can learn about projects that are 
new to us, we have already been contacted by several groups. One 
potential example is gaining an easement for the Seely Lake Community 
Trail across Montana Department of Natural Resources and State school 
lands. This trail provides year-round motorized and nonmotorized access 
for 5,000 acres of hunting and hiking, 16,000 acres for horseback 
riding, and 32,000 acres for mountain biking. We are confident there 
will be a number of robust responses from all USFS regions to the 
Request for Proposals that meet the fiscal year 2013 budget 
justification requirements.
    Question. While the proposed Priority Recreational Access program 
would be funded at $5 million, the longstanding Critical Inholding 
Acquisitions account is zeroed out in fiscal year 2013. Why does the 
new focus area come at the expense of inholdings?
    Answer. The Priority Recreational Access line item is proposed for 
only 1 year to focus on unique recreational access problems.
    Question. Will USFS be able to secure critical inholding 
acquisitions without a specific line item?
    Answer. USFS may secure some inholdings with the Priority 
Recreational Access line item, but projects will be selected based on 
different criteria than is required for critical inholdings. The 
criteria for recreational access will rate tracts based on the 
project's ability to maximize access to areas previously considered 
inaccessible and that increase visitor use. Recreational Access 
acquisitions may or may not be inholdings.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein

    Question. This year's budget provides you with $24 million to 
contract for new firefighting aircraft. And you have publicly stated 
that you intend to acquire three new planes this year, so that works 
out to $8 million per plane acquisition.
    Answer. The fiscal year 2013 budget request includes $24 million to 
acquire new firefighting aircraft. We are estimating contracting for 10 
additional next-generation airtakers in 2013. In addition, the three 
next-generation airtankers that may be awarded and operational in 2012 
will be funded utilizing fiscal year 2012 budget appropriated funds.
    Question. Following this pricing model, will the United States 
Forest Service (USFS) be seeking $80 million to purchase the 10 planes 
you intend to acquire next year?
    Answer. USFS does not intend to purchase these aircraft. The 
services will be acquired through contracts operated by the contractor. 
The $24 million in fiscal year 2013 will be used to help account for 
inflation and anticipated increased cost of next-generation large 
airtankers.
    Question. Aerial firefighting contractors tell me that the USFS's 
5-year contracts, with single year options, are not long enough for 
them to secure the capital needed to purchase firefighting aircraft.
    Answer. The next-generation large airtanker contract was lengthened 
in response to private industry input. It is a Firm Fixed Price Multi-
Year contract(s) not to exceed 10 years (a 5-year base period with five 
1-year options).
    Question. What indication do you have from your contractors that 
they will be able to actually provide the 13 planes by the end of next 
year?
    Answer. USFS is skeptical that private industry will be able to 
design, build, test, and gain approval of the next-generation large 
airtankers as quickly as they state. These aircraft are generally 
unproven as airtankers, some with new-design retardant delivery systems 
or other new features which will take time to evaluate and modify to 
fully meet performance standards and airworthiness requirements.
    However, several of the contractors are represented by an aerial 
firefighting industry group (American Helicopter Services and Aerial 
Firefighting Association) which has publicly stated that private 
industry is ``technically capable and financially able to bring about 
this fleet modernization plan.''
    Question. If the terms of the contract were longer, would that 
reduce the Federal cost of acquiring these planes?
    Answer. Private industry has told us that longer contract periods 
should reduce overall costs during the full contract period. The next-
generation contract with a base 5-year period and five 1-year options 
and an incremental delivery option provides flexibility for private 
industry and the Government delivering next-generation large airtankers 
this year, while providing time for current and new airtanker vendors 
to secure financing, design, and develop aircraft for 2013 and beyond.
    Question. Do you have the authority to offer a longer contract?
    Answer. Under the Federal Acquisition Regulations (FARs) USFS was 
able to solicit this 5-year base with five 1-year options contract for 
airtankers. The FARs do not allow for more than 5 years with 5 years of 
extensions for this type of contract.
    Question. Chief Tidwell, with the proposed 25-percent cut to 
hazardous fuels, how many fewer acres will you be able to treat?
    Answer. The hazardous fuel's program request for fiscal year 2013 
is about the same as fiscal year 2012, but we request that $75 million 
of that be transferred into Integrated Resource Restoration (IRR). The 
$75 million represents the amount hazardous fuels is shifting to IRR in 
fiscal year 2013. These are hazardous fuel funds that have 
traditionally been spent outside the Wildland Urban Interface (WUI) and 
for restoration in previous years. These funds will now be combined 
into IRR and support integrated restoration and accomplish landscape-
level ecosystem restoration which includes hazardous fuel reduction. 
IRR is designed to help address at the national level the complete 
scope of restoration activities, highlighting water, fuels reduction 
and road decommissioning, while also integrating the many other 
activities that have always been central to the agency's mission.
    Question. How many fewer acres will be treated in California?
    Answer. We don't anticipate fewer acres treated in California due 
to IRR. If fewer acres are treated it will be due to other factors such 
as cost per acre, weather, and the time needed to complete analysis 
under the National Environmental Policy Act (NEPA) requirements. Also, 
the acre target has been reduced due to the increased cost of treating 
the WUI.
    Question. It is my understanding that you revoked the 10-percent 
pay raise for firefighters because retention rates improved.
    This reasoning doesn't hold water. If the pay raise worked, and 
retention rates have stabilized, why roll back the successful 
initiative?
    Answer. During March 2009, USFS implemented two retention 
incentives to address the 13-percent attrition rate affecting the fire 
program for permanent/career conditional employees. The first incentive 
implemented converted less than full-time employees in certain 
positions to a full-time tour of duty. This incentive is still in place 
and includes a full-time tour of duty for all new employees hired in 
these positions. The annual cost of this incentive is $21 million and 
is funded from our Wildland Fire Preparedness allocated funds.
    The second incentive implemented was a 10-percent increase in base 
pay for primary fire positions for grades GS-5 through GS-8. This 
incentive required annual approval with the Department of Agriculture 
(USDA). Approvals were requested and granted for March 2009 through 
February 2010, March 2010 through February 2011, and March 2011 through 
February 25, 2012. USFS did not request reauthorization from USDA for 
this retention incentive after February 25, 2012. The decision was 
based on the agency's ability to maintain Fire Fighting Production 
Capability due to the low attrition rate. USFS will continue to monitor 
our fire management workforce situation and respond appropriately.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy

    Question. Can you provide a brief update of the land acquisition 
program for the Green Mountain National Forest (GMNF) and what priority 
projects may be secured this year? I have made GMNF land acquisition a 
priority during my entire time in the U.S. Senate and have seen Federal 
ownership go from less than 300,000 acres to more than 400,000 acres 
during that time. Seeing the benefits of GMNF land acquisition helped 
inspire me to create the Forest Legacy Program (FLP) which has 
protected more than 2 million acres nationally.
    Answer. The fiscal year 2013 budget request did not propose 
specific new land acquisition projects for the GMNF. The GMNF is in the 
process of completing various land acquisitions including the 
following:
    Recently the GMNF acquired from the Trust for Public Land, a 300-
acre parcel ($318,000), that contains approximately 8 acres of 
wetlands. It is contiguous to a large block of National Forest System 
lands to the west and east. The property is also within a bear corridor 
(a species of high public interest), and provides a swath of currently 
undeveloped land that serves as an east-west traveling corridor for 
black bears.
    Partnering with the Manchester Land Trust, the GMNF recently 
acquired a 120-acre parcel ($350,000) in Manchester and Winhall that 
contains a significant portion of Stony Brook, which is a tributary to 
the Batten Kill River, high-quality northern hardwoods, that provides 
opportunities for backcountry recreation.
    The GMNF also acquired from a private landowner a 4-acre parcel 
($20,000) that consolidates the last block of private land within the 
section of National Forest System lands in the Town of Ripton.
    Under contract is an 80-acre parcel located in the Town of Woodford 
that is contiguous to National Forest System lands on the south and 
east and provides the public with opportunities for backcountry 
recreation.
    The GMNF is actively engaged with the potential purchase of a 
multitude of properties, including two parcels totaling 330 acres that 
provide public access to a larger block of National Forest System lands 
and a 36-acre parcel entirely surrounded by National Forest System 
lands within the Taconic expansion area. In addition, several 
additional parcels that meet the GMNF Land and Resource Management Plan 
and National Strategic Plan goals are being negotiated.
    In addition we have worked with partners to protect 78,829 acres of 
important forests across 62 tracts in Vermont, through FLP. Although 
not in Federal ownership, many of these tracts are strategically 
located adjacent to the GMNF.
    Partnering with third parties, such as the Trust for Public Land, 
the Conservation Fund and the Manchester Land Trust, the GMNF 
acquisition program continues to work with local communities to 
identify and support priority acquisitions.
    Question. I introduced the legislation which created the Moosalamoo 
National Recreation Area (NRA) within the GMNF in order to literally 
put this fantastic recreational resource ``on the map''. Since its 
creation in 2006 however, this NRA has struggled to gain the national 
recognition that it so richly deserves. Can you tell me what the U.S. 
Forest Service (USFS) is doing within Vermont, regionally, and across 
the country to fully implement the New England Wilderness Act of 2006? 
This act established the National Recreation Area and calls for the 
Moosalamoo to become a national showcase of integrated forest 
management, as well as a nationally significant recreational resource.
    Answer. The GMNF has been working hard to implement the New England 
Wilderness Act of 2006 as part of the Chief's 10-Year Wilderness 
Challenge. For example:
  --The GMNF has worked with the Vermont Youth Conservation Corps to 
        remove culverts by hand and decommission roads within 
        wilderness designated by the act.
  --The forest has plans to remove larger culverts in designated 
        wilderness that would require mechanized equipment. This work 
        requires NEPA review before restoration of these roads can be 
        implemented.
  --USFS is working closely with the Moosalamoo Association by 
        providing Challenge Cost Share Agreements for trail maintenance 
        projects throughout the National Recreation Area. An American 
        Recovery and Reinvestment Act project was recently awarded 
        ``Project of the Year'' from the Vermont Trails and Greenways 
        Council and received recognition from the USFS regional office 
        for collaboration and partnership success.
  --Partnering with the Vermont Youth Conservation Corps and the 
        Vermont Mountain Bike Association, the GMNF recently completed 
        major trail work on the Leicester Hollow--Chandler Ridge Loop 
        Trail in the Moosalamoo National Recreation Area.
  --The GMNF continues to inventory and identify the condition of our 
        campsites within the Moosalamoo National Recreation Area.
                                 ______
                                 
             Questions Submitted by Senator Lisa Murkowski

    Question. In light of the President's announcement last week of an 
Executive order creating an interagency working group ``. . . to 
coordinate the efforts of Federal agencies responsible for overseeing 
the safe and responsible development of unconventional domestic natural 
gas resources'', and the inclusion of the United States Department of 
Agriculture in that working group, how are the activities of individual 
forests, like those of the George Washington and Wayne National 
Forests, being coordinated within the United States Forest Service 
(USFS) and with the interagency working group?
    Answer. The Executive order, dated April 13, 2012, directs that 
Interagency Working Group membership ``. . . shall include deputy-level 
representatives or equivalent officials, designated by the head of the 
respective agency or office . . .'' and lists the Department of 
Agriculture under membership. Individual forest and grassland line 
officers will continue to coordinate with appropriate officials within 
USFS through the agency Deputy Chiefs. The agency leadership through 
the Chief and the Deputy Chiefs will coordinate with Department of 
Agriculture officials. Departmental representatives will coordinate 
with other agencies on appropriate issues within the interagency 
working group.
    Question. When do you expect the George Washington National Forest 
plan and the Wayne National Forest's study to be finalized?
    Answer. We anticipate that the George Washington National Forest 
plan will be completed in the late summer of 2012. The Wayne National 
Forest's study is projected to be finalized in mid to late June 2012.
    Question. Can you please get back to me when you have had a chance 
to review this as an agency and inform me of your plans?
    Answer. Yes.
                                 ______
                                 
                   Questions Submitted to Susan Spear
            Questions Submitted by Senator Patrick J. Leahy

    Question. The Green Mountain National Forest (GMNF) is one of the 
most recreated National Forests in the region--the roughly 80 employees 
of the GMNF serve some 3 to 4 million visitors annually, and are within 
a day's drive of 70 million people. The GMNF serves as the only 
experience that many people from crowded east coast cities may have 
with Federal natural resource agencies. The staffs of the GMNF do a 
great job of resource management but they do so working out of a leased 
facility, some distance from the Forest itself and with very modest and 
dated visitor facilities.
    The U.S. Forest Service (USFS) has identified the site for 
construction of a new GMNF headquarters building, on National Forest 
land, on Route 4, the Gateway to the National Forest. Construction of a 
new headquarters will save the Federal Government money, as compared to 
ongoing lease payments, and allow for an even better job of resource 
management and public education. This is a project that I have 
supported for 10 years and am eager to see it built in the near future. 
Can you assure me that USFS will allocate the necessary $1 million to 
complete the design of the new headquarters building for the GMNF this 
year?
    Answer. While the design and construction phases of a new Forest 
Supervisor's office in Mendon, Vermont, are included in the Eastern 
Region's Infrastructure Priority Project List, there are many projects 
of higher priority nationally. Therefore, design work for the new GMNF 
headquarters has not been initiated this year. Overall agency funding 
for facility design/construction in 2012 has been reduced by 56 percent 
since 2010. As a result, we are reassessing many competing priorities, 
considering less-costly alternatives, and re-evaluating the highest-
priority projects that may be possible to complete with very limited 
funding.
    For fiscal year 2013 the budget request includes a program increase 
of $23,799,000 from the fiscal year 2012 enacted level for facilities 
to support the safety and health of all users of existing 
infrastructure and to judiciously defer all new construction, including 
phased projects that include new construction, when other cost 
effective and reasonable options exist.
    Question. The GMNF was at the epicenter of the worst damage wrought 
by Tropical Storm Irene. USFS staff performed heroically to help local 
communities even though many of them had suffered damage to their own 
homes. There are 900 miles of trails and roads within the GMNF, 85 
percent of which were damaged and a majority of the damaged trails 
remain closed as our most active trail season approaches, with repair 
needs in excess of $2 million. Will you be able to allocate resources 
to repair the damage caused by Tropical Storm Irene to the trails and 
roads within the GMNF in a timely manner?
    Answer. Yes, we have been and will continue to allocate resources 
to the trails and roads within the GMNF. For fiscal year 2012, the 
Eastern Region allocated $390,000 for use in trail restoration and 
repair directly related to Tropical Storm Irene. USFS was able to apply 
appropriated funds to the early recovery stages on the GMNF at the end 
of fiscal year 2011 and in early fiscal year 2012. Additional funding 
has been secured from the Federal Highway Administration's Emergency 
Relief for federally Owned Roads (ERFO) program. The GMNF will be 
working with local partners and contractors to prioritize and implement 
major repairs in fiscal year 2012 and fiscal year 2013.
    While much of the road repair work qualifies for ERFO funding, 
almost all trail related damage does not. We will continue to work with 
established volunteer organizations and other nongovernmental 
organizations on creative ways to bring these trails up to safe 
standards for public use.
    The GMNF completed a comprehensive survey of all roads, trails, and 
facilities that were damaged extensively during Tropical Storm Irene. 
Many roads and trails require environmental assessment work before work 
can be initiated.
    The GMNF has been working closely with the public and municipal 
leaders on short- and long-term solutions, including establishing 
priorities for limited funding and resources to meet specific public 
demands. This work includes shifting resource management priorities so 
that public and private access is available through damaged GMNF roads.

                          SUBCOMMITTEE RECESS

    Senator Reed. And we ask you to respond to any requests for 
information or questions as promptly as possible, Chief.
    With no further comment, the hearing is concluded. Thank 
you very much.
    [Whereupon, at 10:58 a.m., Wednesday, April 18, the 
subcommittee was recessed.]

</pre></body></html>
